V

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Dose Luis Torres,
Petitioner
vs.
Smithfield SCI, et al.,
Respondents

APPENDIX

Case: 19-3398

Document: 23-1

Page: 1

Date Filed: 04/02/2020

February 20,2020
ALD-120
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3398
JOSE LUIS TORRES, Appellant
VS.
SMITHFIELD SCI, ET AL.
(E.D. Pa. Civ. No. 5:15-cv-02703)
Present: MCKEE, SHWARTZ and PHIPPS, Circuit Judges
Submitted are:
(1)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1); and

(2)

Appellees’ response
in the above-captioned case.
Respectfully,
Clerk

__ _______________________
ORDER_______________________ ______
Torres’ request for a certificate of appealability is denied because he has not
“made a substantial showing of the denial of a constitutional right. 28 U.S.C.
§ 2253(c)(2). Jurists of reason would agree, without debate, that Torres’ ineffective
assistance of counsel claim is meritless because he cannot show that his counsel s
performance prejudiced him, for substantially the reasons given by the District Court.
See Miller-El v. Cockrell 537 U.S. 322, 327 (2003); ggedsp Velazquezv,
Superintendent Favette SCI, 937 F.3d 151, 162 (3d Cir. 2019).
By the Court,
s/Pattv Shwartz
Circuit Judge
Dated: April 2,2020

A True Copy/” ''•js'.i-'1'’

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

A ppen of/X A

4

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
JOSE LUIS TORRES,
Petitioner,
CIVIL ACTION NO. 5:15-02703

v.
KEVIN KAUFFMAN, et al,
Respondents.
ORDER

AND NOW, this 12th day of September 2019, upon careful and independent
consideration of the Petition for Writ of Habeas Corpus, and all related filings, and upon review
of the Report and Recommendation (R&R) of United States Magistrate Judge Henry S. Perkin,
and for the reasons stated in the separate Order approving and adopting the R&R, it is hereby
ORDERED that:
1. The Petition for Writ of Habeas Corpus is DISMISSED WITH PREJUDICE and
without an evidentiary hearing;
2. There is no probable cause to issue a certificate of appealability1; and
3. The Clerk of Court is directed to CLOSE the case.
It is so ORDERED.
BY THE COURT:
/s/ Cynthia M. Rufe
CYNTHIA M. RUFE, J.

1 There is no basis for concluding that “reasonable jurists could debate whether ... the petition should have been
resolved in a different manner or that the issues presented were adequate to deserve encouragement to proceed
further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal citation omitted).

0

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
JOSE LUIS TORRES,
Petitioner,
CIVIL ACTION NO. 5:15-02703

v.
KEVIN KAUFFMAN, etaL,
Respondents.
ORDER

Petitioner, who is proceeding pro se, seeks relief in this Court pursuant to 28 U.S.C.
§ 2254, arguing that his state-court conviction was imposed in violation of the United States
Constitution. Petitioner is a Pennsylvania state prisoner currently serving an aggregate sentence
of l2Vi to 25 years after pleading guilty to multiple counts of burglary and one count each of
persons n

ot to possess firearms and resisting arrest. The Petition was referred to Magistrate

Judge Henry S. Perkin, who has issued a Report and Recommendation (“R&R”) that the petition
be denied. Petitioner has filed objections to the R&R. After careful, de novo review of the record,
the Court determines that Petitioner has not shown entitlement to relief, and agrees with the
thorough R&R that Petitioner has failed to meet the standard for obtaining relief.
I.

BACKGROUND l
Between June 2010 and May 2011, Petitioner committed a series often burglaries m

Lehigh County and neighboring jurisdictions. On July 28, 2011, the Commonwealth filed three
criminal informations that charged Petitioner with the following offenses (collectively, the “2011
cases”):

Unless otherwise noted, the background is primarily drawn from the Report and Recommendation.

CP-39-2821-2011
Count 1 - Persons not to possess firearms, 18 Pa.C.S.A. § 6015(a)(1) [nolle pros].
CP-39-2822-2011
Count 1 — Receiving stolen property, 18 Pa.C.S.A. § 3925(a) [withdrawn].
Count 2 - Persons not to possess firearms, 18 Pa.C.S.A. § 6105(a)(1) [guilty plea].
Count 3 - Firearms not to be carried without a license, 18 Pa.C.S.A. § 6106(a)(1)
[withdrawn].
C.P-39-CR-2828-2011
Count 1 - Aggravated assault, 18 Pa.C.S.A. § 2702(a)(3) [withdrawn].
Count 2 - Reckless Endangering Another Person, 18 Pa.C.S.A. § 2705 [withdrawn].
Count 3 -Resisting Arrest, 18 Pa.C.S.A. § 5104 [nolo contendere].
On February 14, 2012, the Commonwealth filed three additional criminal informations
against Petitioner (collectively, the “2012 cases”) that charged as follows:
CP-?39-CR-282-2012
Count 1 - Burglary, 18 Pa.C.S.A. § 3502(a) [guilty plea].
Count 2 - Criminal Trespass, 18 Pa.C.S.A. § 3503(a)(1)(h) [withdrawn].
Count 3 - Theft by unlawful taking, 18 Pa.C.S.A. § 3921(a) [withdrawn].
Count 4 - Receiving stolen property, 18 Pa.C.S.A. § 3925(a) [withdrawn].
Count 5 - Criminal mischief, 18 Pa.C,S.A. § 3304(a)(5) [withdrawn].
CP-39-CR-289-2012
Counts 1, 7,13,19, 25, 33, 39 -Burglary, 18 Pa.C.S.A. § 3502(a) [guilty plea].
Counts 2, 8, 14, 20, 26, 34, 40 - Criminal Trespass, 18 Pa.C.S.A. §3503(a)(l)(ii)
[withdrawn].
Count 3, 9, 15, 21, 27, 35, 41 - Theft by unlawful taking, 18 Pa.C.S.A. §3921(a)
Counts 4, 10, 16, 22, 28, 36, 42 - Receiving stolen property, 18 Pa.C.S.A.2 [withdrawn]
Counts 5^ 11,17, 23, 29, 37,43 - Criminal mischief, 18 Pa.C.S.A. §3304(a)(5)
[withdrawn].
^o A
Counts 6, 12, 18, 24, 30, 38, 54 - Conspiracy to commit burglary, 18 Pa.C.S.A. § 904(a),
3502(a) [guilty plea].
Counts 31, 32, 44, 45, 46, 47, 48, 49, 50, 51, 52, 53 - Person not to possess, 18 Pa.C.S.A.
§ 6105(a)(1) [withdrawn].

CP-3 9-CR-3 824-2012
2

Counts 1 and 2 - Burglary, 18 Pa.C.S.A. § 3502(a) [guilty plea].
On February 27, 2012, pursuant to a negotiated plea agreement, Petitioner resolved the
2011 cases by pleading guilty to persons not to possess in case no. 2822/2011 and entered a nolo
contendere plea to resisting arrest in case no. 2828/2011. In exchange for these guilty pleas, the
Commonwealth agreed to nolle pros case no. 2821/2011 and further agreed not to pursue the
other charges alleged in case nos. 2822/2011 and 2828/2011. The trial court imposed the agreedupon sentence of five to ten years of incarceration for Petitioner’s persons not to possess
conviction for case no. 2822/2011, and a concurrent sentence of one to two years of
imprisonment for the resisting arrest charge in case no. 2828/2011. During the hearing, Petitioner
acknowledged that the 2012 cases were still pending.
Petitioner resolved the 2012 cases by entering a separate negotiated plea agreement with
i.

the Commonwealth on September 10, 2012. At the September 10, 2012 plea hearing, Petitioner
pled guilty to ten counts of burglary and one count of criminal conspiracy to commit burglary. In
exchange for Petitioner’s guilty pleas, the Commonwealth withdrew the remaining charges at
case nos . 282/2012 and 289/2012. In addition, the trial court sentenced Petitioner to serve the
agreed-upon disposition of seven and one-half to 15 years on each of the burglary and conspiracy
charges, concurrent to each other but consecutive to the sentence imposed on February 27, 2012.
Thus, the aggregate sentence for Petitioner’s 2011 and 2012 cases was 12lA to 25 years in prison.
n.

DISCUSSION
Petitioner argues that his trial counsel was ineffective for failing to prevent him from

being placed in double jeopardy in violation of the Fifth Amendment to the United States
Constitution. The R&R determined that these claims were procedurally defaulted and there was
no basis for excusing the default.

3

Petitioner concedes in his Objections that these double jeopardy claims were procedurally
defaulted.2 Thus, to obtain habeas relief based on these claims, Petitioner argues that 1) his
prosecutions were in violation of the Double Jeopardy Clause of the Fifth Amendment, 2) his
trial counsel’s failure to advise him of any double jeopardy concerns or to object to the
prosecutions constituted ineffective assistance of counsel; and 3) based on Martinez v. Ryan,3 the
procedural default should be excused because Petitioner’s counsel at the first collateral
proceeding provided ineffective assistance by not raising a claim that Petitioner s trial counsel
was ineffective.
As will be explained, Petitioner’s claims fail because he was never placed, in jeopardy for
any of the three prosecutions he challenges. Moreover, even if the constitutional prohibition of
double jeopardy were implicated by Petitioner’s prosecutions, trial counsel s performance was
not constitutionally deficient.
A. Double Jeopardy
Petitioner’s Objections specifically reference three sets of charges which he alleges raise
double jeopardy concerns. The first set are Count 1 on Docket CP-39-2821-2011 [nolle pros] of
the 2011 cases and Count 45 on Docket CP-39-CR-289-2012 [withdrawn] of the 2012 cases.
Both counts are for persons not to possess firearms in violation of 18 Pa.C.S.A § 6105(a)(1) and
Petitioner asserts that both are for possession of the same Glock Model 23, 40 caliber pistol.
The second set are Count 2 on Docket CP-39-2822-2011 [guilty plea] from the 2011
cases and Count 31 on Docket CP-39-CR-289-2012 [withdrawn] from the 2012 cases. Again,

2 See Doc. No. 32, p. 1-2. For purposes of this Order, the Court will assume without deciding that the claims were
procedurally defaulted. Regardless, as will be explained, even if the procedural default were excused, Petitioner’s
double jeopardy claims are without merit.
3 566 U.S. 1 (2012).

4

*

%

both counts are for persons not to possess firearms in violation of 18 Pa.C.S.A. § 6105(a)(1) and
Petitioner asserts that both are for possession of the same Smith & Wesson, 9mm pistol.
The third set are Count 1 on Docket CP-39-CR-2822-2011 [withdrawn] of the 2011 cases
and Count 28 on Docket CP-39-CR-289-2012 [withdrawn] of the 2012 cases. Both counts are for
rece iving stolen property in violation of 18 Pa.C.S.A. § 3925(a) and Petitioner alleges that both
are for being in receipt of the same Smith & Wesson, 9mm pistol. From the state of the record, it
is unclear whether the 2012 count was for being in receipt of the same gun, another gun, or some
other stolen property.
Nevertheless, Petitioner’s argument fails for the simple reason that he was never placed
in jeopardy as to any of the three 2012 counts at issue. All three counts - Count 28 (Receiving
stolen property), Count 31 (Possession of Smith & Wesson), and Count 45 (Possession of Glock)
- were withdrawn by the Commonwealth in exchange for Petitioner’s guilty plea to ten counts of
burglary and one count of criminal conspiracy to commit burglary. In the context of a plea
agreement, jeopardy only attaches “with the acceptance of [a] guilty plea.”4 Therefore, since
Petitioner never pled guilty to, and was never convicted of, any of the challenged 2012 counts,
the Double Jeopardy Clause was not violated.5
B. Ineffective Assistance of Counsel
Even if the second set of prosecutions violated the Double Jeopardy Clause, to overcome.
procedural default, Petitioner would have to show that his counsel was ineffective. Claims for

4 United States v. Jerry, 487 F.2d 600, 606 (3d Cir. 1973); see also United States v. Coleman, 677 F. App’x 89, 92
(3d Cir. 2017) (ruling that the withdrawal of a guilty plea by a defendant’s motion does not create a double jeopardy
bar).
5 Moreover, Petitioner fails to provide support for the proposition that double jeopardy only permits a smgle
prosecution for possession of a particular gun no matter how many distinct incidents involved that gun. There is no
basis in the record to conclude that Petitioner could not be charged for possessing the Glock and Smith & Wesson
guns at different times and in different places.

5

ineffectiveness of counsel are governed by Strickland v. Washington.6 Under Strickland, counsel
is presumed effective and a petitioner must establish that counsel’s conduct was so unreasonable
that no competent lawyer would have acted similarly, and that counsel has made errors so
serious that counsel was not functioning as the ‘counsel’ guaranteed ... by the Sixth
Amendment.”7
In addition, a petitioner must prove prejudice. The “[tjraditional inquiry for prejudice in
the plea context is whether there is a reasonable probability that, but for counsel’s errors, the
petitioner would have foregone a guilty plea and insisted on trial.”8 The Third Circuit has
explained that the Supreme Court has expanded “this inquiry to cover instances in which the
deprivation of the right to trial was not the concern, but rather the opportunity to enter a different
guilty plea.”9 However, there must “be a showing as to whether the other plea would have been
available, accepted by both the petitioner and the court, and, importantly, that the other plea
offered ‘less severe’ terms than the ‘judgment and sentence’ that was in fact imposed.

»io

As explained above, double jeopardy was not implicated with regard to any of the counts
that Petitioner challenges. Therefore, counsel did not act unreasonably in failing to object to the
2012 cases on double jeopardy grounds. Moreover, even if counsel had been ineffective,
Petitioner did not suffer any prejudice. The 2012 cases comprised 61 separate counts. Petitioner
resolved these 61 counts by entering into a plea agreement in which he pled guilty to ten counts
of burglary and one count of criminal conspiracy to commit burglary. In return, the

6 466 U.S. 668 (1984).
7 Id. at 687.
8 Velazquez v. Superintendent Fayette SCI, — F.3d
Lockhart, 474 U.S. 52, 59 (1985)).

2019 WL 4147986, at *9 (3d Cir. Sept. 3, 2019) (citing Hill v.

Id
10 Id (quoting Lqfler v. Cooper, 566 U.S. 156,163-64 (2012) (emphasis in Velazquez).

6

k,

4

Commonwealth withdrew the other 50 counts and pursuant to the parties’ plea agreement, the
court sentenced Petitioner to serve seven and one-half to .15 years on each of the charges to run
concurrent to each other.
Had counsel raised the double jeopardy issue, and had the court ruled in Petitioner s
favor on each of the claims and dismissed all three counts, Petitioner still would have been
charged with 58 counts. Even without the counts that Petitioner alleges violated double jeopardy,
Petitioner was still facing another 10 counts of possession and another 6 counts of receiving
stolen property. Petitioner has not made any showing in his papers that had trial counsel raised
the double jeopardy issue, the Commonwealth would have made another plea available that
offered “less severe” terms.11 Therefore, Petitioner cannot show that he suffered any prejudice
due to counsel not objecting to the 2012 cases on double jeopardy grounds.
Therefore: Petitioner has shown neither a violation of the Double Je ypardy Clause nor
ineffective assistance of counsel. Accordingly, Petitioner’s counsel at the first collateral
proceeding was likewise not ineffective for failing to make an ineffective assistance of counsel
claim based on the failure to raise a double jeopardy claim. Therefore, the Martinez exception to
procedural default is inapplicable here and there is no basis to excuse the procedural default.
AND NOW, this 12th day of September 2019, upon careful and independent
consideration of the Petition for Writ of Habeas Corpus, and all related filings, and upon review
of the R&R of United States Magistrate Judge Henry S. Perkin, and the objections thereto, and
for the reasons stated above, it is hereby ORDERED that
1. The Objections [Doc. No. 32] are OVERRULED;
2. The R&R [Doc. No. 26] is APPROVED AND ADOPTED;

11 Id. (internal quotation marks and citations omitted).

7

3. The Petition will be dismissed by separate Order.

It is so ORDERED.
BY THE COURT:
/s/ Cynthia M. Rufe
CYNTHIA M. RUFE, J.

8

'3

*•

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 1 of 22

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

JOSE LUIS TORRES,

Petitioner,
NO. 15-2703

v.

KEVIN KAUFFMAN, et al.,

Henry S. Perkin, M.J.

Respondents.
April 30, 2018

REPORT AND RECOMMENDATION

Presently before the Court is the pro se Petition for Writ of Habeas Corpus filed
by the Petitioner, Jose Luis Torres (“Petitioner”), pursuant to 28 U.S.C . section 2254. Petitioner
is a Pennsylvania state prisoner currently serving an aggregate sentence of 12 A to 25 years after
pleading guilty to multiple counts of burglary and one count each of persons not to possess
firearms and resisting arrest. For the reasons that follow, it is recommended that the Petition
should be denied with prejudice and dismissed without an evidentiary hearing.
I.

PR OFF,DIJRAL HISTORY,1
The Superior Court of Pennsylvania summarized the facts as follows:
Between June 2010 and May 2011, Appellant committed a series often
burglaries in Lehigh County and neighboring junsdictions. Thereafter, on June 3,
2011, officers with the Allentown and Upper Saucon Police Departments, actmg
on information from confidential sources and pursuant to an arrest warrant on
unrelated charges, stopped a vehicle operated by Appellant. A struggle ensued but
the officers were eventually able to subdue Appellant. During a subsequent
inventory search, the officers discovered a 9mm semi-automatic handgun on the
front passenger floorboard of the vehicle. Further investigation also revealed that
1) the 9mm handgun had been reported stolen, 2) Appellant had a pnor fe ony
conviction that prohibited him from possessing a firearm, and 3) Appellant did not
have a license to carry a firearm on the date of his apprehension.

This

information is taken from the documents of record and the state court record.

/\^cnJix C

r
Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 2 of 22

\

On July 28, 2011, the Commonwealth filed three criminal informations
that charged Appellant with the following offenses:61
fii. Hereafter, we shall collectively refer to the charges filed on July 28, 2011 as
the “2011 cases.”

CP-3 9-2821-2011
Count 1 - Persons not to possess firearms, 18 Pa.C.S.A. § 6015(a)(1).
CP-39-2822-2011
Count 1 - Receiving stolen property, 18 Pa.C.S.A. § 3925(a).
Count 2 - Persons not to possess firearms, 18 Pa.C.S.A. § 6105(a)(1).
Count 3 - Firearms not to be carried without a license
18 Pa.C.S.A. § 6106(a)(1).
CP-39-CR-2828-2011
Count 1 - Aggravated assault, 18 Pa.C.S.A. § 2702(a)(3).
Count 2 - Reckless Endangering Another Person, 18 Pa.C.S.A. § 2705.
Count 3 - Resisting Arrest, 18 Pa.C.S.A. § 5104.
On February 14, 2012, the Commonwealth filed three additional criminal
informations against Appellant that charged as follows:61
fh. Hereafter, we shall collectively refer to the charges filed on February 14
2012 as the “2012 cases.”
’

CP-39-CR-282-2012
Count 1 - Burglary, 18 Pa.C.S.A. § 3502(a).
Count 2 - Criminal Trespass, 18 Pa.C.S.A. § 3503(a)(l)(ii).
Count 3 - Theft by unlawful taking, 18 Pa.C.S.A. § 3921(a).
Count 4 - Receiving stolen property, 18 Pa.C.S.A. § 3925(a).
Count 5 - Criminal mischief, 18 Pa.C.S.A. § 3304(a)(5).
CP-39-CR-289-2012
Counts 1, 7, 13, 19, 25, 33, 39-Burglary, 18 Pa.C.S.A. § 3502(a).

l

I

Counts 2, 8, 14, 20, 26, 34, 40 - Criminal Trespass, 18 Pa.C.S A S
3503(a)(1)(h).
'*
Count 3, 9, 15, 21, 27, 35, 41 - Theft by unlawful taking, 18 Pa.C.S.A. §
3921(a).
j
Counts 4, 10, 16, 22, 28, 36, 42 - Receiving stolen property, 18 Pa.C.S.A.
2

£\

Case 5:15-CV-02703-CM R Document 26 Filed 04/30/18 Page 3 of 22

§ 3925(a).
Counts 5, 11, 17, 23, 29, 37, 43 - Criminal mischief, 18 Pa.C.S.A. §
3304(a)(5).
Counts 6, 12, 18, 24, 30, 38, 54 - Conspiracy to commit burglary, 18
Pa.C.S.A. § 903(a), 3502(a).
Counts 31, 32, 44, 45, 46, 47, 48, 49, 50, 51, 52, 53 -Person not to
possess, 18 Pa.C.S.A. § 6105(a)(1).
r.P-39-CR-3824-2012
Counts 1 and 2 - Burglary, 18 Pa.C.S.A. § 3502(a).
On February 27, 2012, Appellant resolved the 2011 cases by entering a
negotiated plea agreement with the Commonwealth. See generally N.T., 2/27/12,
at 2-16 Under the terms of the plea agreement, Appellant pled guilty to persons
not to possess in case no. 2822/2011 and entered a nolo contendere plea to
resisting arrest in case no. 2828/2011. In exchange for Appellant s pleas, the
Commonwealth agreed to nolle pros case no. 2821/2011 and fete agreed not to
pursue the other charges alleged in case nos. 2822/2011 and 2828/2011.
Additionally, pursuant to the parties’ plea agreement, the court imposed a
sentence of five to ten years’ incarceration for Appellant’s persons not to possess
conviction at case no. 2822/2011, together with a concurrent sentence of one to
two years of imprisonment for the resisting arrest charge in case no.
On June 28, 2012, Appellant moved pro se to discontinue trial counsel s
representation. The trial court convened a hearing on Appellant’s motion on July
9 2012. At the conclusion of the hearing, the court relieved trial counse of her
duty to represent Appellant, but directed her to remain attached to Appellant s
cases as stand-by counsel.
plea
Appellant resolved the 2012 cases by. entering a separate negotiated
n MT
agreement with the Commonwealth on September 10, 2012. See generally N T.
9/10/12, at 2-27. At the September 10, 2012 plea hearing, Appellant pled guilty to
ten counts of burglar/1 and one count of criminal conspiracy to commit burglary.
In exchange for Appellant’s guilty pleas, the Commonwealth withdrew the
remaining charges at case nos. 282/2012 and 289/2012. In addition, pursuant to
the parties’ plea agreement, the court sentenced Appellant to serve seven and
one-half to 15 years on each of the burglary and conspiracy charges^ The court
also directed that these sentences were to run concurrent to each other but
consecutive to the sentence imposed on February 27, 2012. Thus, the aggrega e
sentence for Appellant’s 2011 and 2012 cases was 121/* to 25 years in prison.
3

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 4 of 22

fii. As indicated above, one count of burglary was charged at case no. 282/2012,
seven were charged at case no. 289/2012, and two were charged at case no.
3824/2012.

Appellant filed a pro se PCRA petition on February 19, 2013. Appellant’s petition
alleged that trial counsel rendered ineffective assistance in advising him to enter
into pleas that violated 18 Pa.C.S.A. § 110. Appellant also claimed that his
sentence was illegal and that the Commonwealth breached the parties’ plea
agreement when the sentences on the 2011 and 2012 cases were run consecutively
to each other instead of concurrently. On February 26, 2013, the PCRA appointed
counsel to represent Appellant. After reviewing the record, PCRA counsel
concluded that the issues raised in Appellant’s petition lacked merit. Accordingly,
counsel forwarded Appellant a “no-merit” letter pursuant to Commonwealth v
Turner, 544 A.2d 927 (Pa. 1988) and Commonwealth v. Finley, 550 A.2d 213
(Pa. Super. 1988) and moved to withdraw as counsel on March 21, 2013. The trial
court convened an evidentiary hearing to address Appellant’s petition for
collateral relief on May 29, 2013. At the commencement of this hearing, the court
permitted PCRA counsel to withdraw. See N.T., 5/29/13, at 6. Appellant
proceeded pro se throughout the proceedings. Following the close of testimony,
the PCRA court took the matter under advisement. On June 24, 2013, the PCRA
court issued an opinron and order denying Appellant’s petition.
Commonwealth v. Torres, 2117 EDA 2013, slip, op., pp. 6-7 (Pa. Super. Oct. 31, 2014) (internal
crtatrons and footnotes omitted). Petitioner’s appeal in the Pennsylvania Superior Court from
the PCRA court’s denial of his petition raised the following issues for the Superior Court’s
review:
Whether PCRA counsel was ineffective for failing to raise the ineffectiveness of
trial counsel, where trial counsel, (a) advised the Appellant to enter guilty pleas on
February 27, 2012, when there existed other duplicate and related charges, and/or
charges which were part of the same criminal episode, in a separately filed matter;
and (b) failed to file a timely omnibus pretrial motion to dismiss the criminal
information at CP-39-CR-0000289-2012, on double jeopardy grounds?
Whether the consecutive sentence imposed on 9/10/12, for burglary, is illegal,
where: (a) it violates the concurrent terms of the former 2/27/12 plea agreement,
involving that same theft by receiving stolen property; or (b) where the
Commonwealth dismissed that theft” as part of the former agreement; or (c)
where the firearm’s charge the burglary ran consecutive to was actually dismissed,
as part of the terms of the second agreement, in exchange for the pleas being
entered?
4

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 5 of 22

Commonwealth v. Torres, 2117 EDA 2013, Slip. Op., pp. 6-7 (Pa. Super. Oct. 31, 2014). On
October 31, 2014, the Superior Court affirmed the decision of the PCRA court denying the
PCRA petition. Id On October 19, 2014, Petitioner filed a petition for allowance of appeal m
the Pennsylvania Supreme Court that was denied on April 7, 2015. Commonwealth v. Torres,
872 MAL 2014 (Pa. Super. Apr. 7, 2015).
Petitioner filed a second pro se PCRA petition on April 21, 2015. On May 6,
2015, the PCRA court issued its Rule 907 notice of its intent to dismiss the petition. On June 5,
2015, the PCRA court dismissed the petition by Order, which was amended on June 22, 2015.
On July 7, 2015, Judge Dantos issued a memorandum opinion for the benefit of the Superior
Court pursuant to Pennsylvania Rule of Appellate Procedure 1925.
On May 14, 2015, the instant Petition for Writ of Habeas Corpus was docketed by
the Clerk’s Office. See Dkt. No. 1. Petitioner raises the following claims in the Petition: (1)
ineffective assistance where trial counsel: (a) failed to pursue the joinder of offenses which were
the same, related or “multiplicious” and (b) failed to move to reduce the “multiplicious” offenses
to single counts; leaving Petitioner foreseeably exposed to double jeopardy and/or a breach of the
plea agreement; and (2) ineffective assistance of counsel in regards to my right to be free from
unreasonable searches and seizures; Brady violation; prosecutor withheld material evidence. See
Pet. The Honorable Cynthia M. Rufe referred the Petition to the undersigned for preparation of a
Report and Recommendation. Respondents contend that Petitioner is not entitled to federal
habeas relief because his claims were appropriately rejected as meritless by the state courts or are
procedurally defaulted and meritless. Petitioner filed a “Notice of Finality of State Court

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 6 of 22

Proceedings” in which he states that he withdrew his PCRA appeal pending in the Pennsylvania
Superior Court at the time that he filed the instant Petition alleging that counsel was ineffective
regarding his right to be free from unreasonable searches and seizures, for not raising a Brady
violation and for not objecting when the prosecutor allegedly withheld material evidence. See
Dkt. No. 15, p. 1. In the Notice, Petitioner also withdrew his claims alleging that counsel was
ineffective regarding his right to be free from unreasonable searches and seizures, for not raising
a Brady violation and for not objecting when the prosecutor allegedly withheld material evidence
in Ground Two of the instant Petition. Id.
II.

STANDARD OF REVIEW.
A.

Exhaustion and Procedural Default.
A petitioner may only succeed in a habeas corpus petition if he has first exhausted

all remedies available in the state courts. 28 U.S.C. § 2254(b)(1)(A). To satisfy this requirement
the petitioner must “fairly present” his claims to the state courts allowing the state courts a
meaningful opportunity to correct alleged constitutional violations. Duncan v. Henry. 513 U.S.
364, 365 (1995); O’Sullivan v. Boerckel. 526 U.S. 838, 845 (1999)(requiring “one complete
round” of the state’s appellate procedures). Petitioner bears the burden of proving the exhaustion
of all available remedies for each claim. Toulson v. Beyer. 987 F.2d 984, 987 (3d Cir. 1993).
Claims that are not exhausted will become procedurally defaulted, and the
petitioner is not entitled to a review on the merits. O’Sullivan. 526 U.S. at 848. Review of a
procedurally defaulted claim is permitted in extremely narrow circumstances, where the
petitioner can show either (1) cause for the default and actual prejudice or (2) the failure to
consider the claim will result in a fundamental miscarriage of justice. Coleman v. Thompson.
6

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 7 of 22

501 U.S. 722, 749 (1991).
“Cause” for procedural default is shown when the petitioner demonstrates “some
objective factor external to the defense impeded counsel’s efforts to comply with the state
procedural rule

Murray v. Carrier, 477 U.S. 478, 488 (1986). “Actual prejudice” occurs when

the errors at trial "worked to his actual and substantial disadvantage, infecting his entire trial with
error

of constitutional dimensions.” Id, at 494 (quoting United States v. Frady, 456, U.S. 152,

179 (1982)). A “fundamental miscarriage of justice” occurs when a petitioner presents new
evidence of his actual innocence such that “it is [now] more likely than not that no reasonable
juror would have convicted him.” Schlup v. Delo, 513 U.S. 298, 327 (1995).
In Martinez v. Ryan, 132 S.Ct. 1309 (2012), the Supreme Court examined
whether ineffective assistance at the initial review of a collateral proceedmg on a claim of
ineffective assistance at trial can provide cause for a procedural defect m federal habeas
proceedings. Id. at 1315. This case recognized a narrow exception to the Coleman rule (that
ineffective assistance of counsel at the state collateral review level could not establish cause to
excuse procedural default), holding that “[inadequate assistance of counsel at initial-review
collateral proceedings may establish cause for a prisoner’s procedural default of a claim of
ineffective assistance at trial.” Martinez v. Ryan, 132 S.Ct. 1309, 1315 (2012). Thus, aPCRA
claim for ineffective trial counsel during an initial state collateral review may qualify as “cause”
to excuse the default if: (1) as a threshold matter, the state requires a prisoner to bring an
ineffective counsel claims in a collateral proceeding; (2) the state courts did not appoint counsel
at the initial review collateral proceeding for an ineffective-assistance-at-trial claim; (3) where
appointed counsel at the initial-review collateral proceeding was ineffective under Strickland v.
7

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 8 of 22

Washington, 466 U.S. 668 (1984) and (4) the underlying ineffective-assistance-at-trial claim is
substantial. Martinez. 132 S.Ct. at 1315-18.
B.

Ineffective Assistance of Counsel.
Claims for ineffectiveness of counsel are governed by Strickland.2 Under

Strickland, counsel is presumed effective, and to prevail on an ineffectiveness claim, a petitioner
must “ overcome the presumption that, under the circumstances, the challenged action ‘might be
considered sound trial strategy.’” Strickland, 466 U.S. at 689. Given this presumption, a
petitioner must first prove that counsel’s conduct was so unreasonable that no competent lawyer
would have followed it, and that counsel has “made errors so serious that counsel was not
functioning as the ‘counsel’ guaranteed ... by the Sixth Amendment.” Id at 687. In addition, a
petitioner must prove prejudice. In order to do so, the petitioner must demonstrate that
counsel s errors were so serious as to deprive [petitioner] a fair trial, a trial whose result is
reliable.” Id. Thus, a petitioner must show a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. A reasonable
probability is sufficient to undermine confidence in the outcome.” Id at 694. This determination
must be made in light of ‘the totality of the evidence before the judge or jury.” Id. at 695.
The United States Court of Appeals for the Third Circuit has cautioned that
[o]nly the rare claim of ineffectiveness should succeed under the properly deferential standard to
be applied in scrutinizing counsel’s performance.” Beuhl v. Vaughn 166 F.3d 163, 169 (3d

In Harrington v. Richter, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2011), the United States Sup reme
Court reaffirmed the continued applicability of the Strickland standard in federal habeas corpus cases. See also
Premo v. Moore. 131 S. Ct. 733, 178 L. Ed. 2d 649 (2011).

8

I

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 9 of 22

Cir.), cert, denied, 527 U.S.

1050 (1999) /quoting U.S. v. Gray, 878 F.2d 702, 711 (3d Cir.

1989)). Under the revised habeas corpus statute, such claims can succeed only if the state court’s
treatment of the
well.

ineffectiveness claim is not simply erroneous, but objectively unreasonable as

Berryman v. Morton, 100 F.3d 1089,1103 (3d Cir. 1996). Recently, the Supreme Court

acknowledged that “[surmounting Strickland’s high bar is never an easy task.” Premo v. Moore,
131 S.Ct. 733,

739 (2011) (quotation omitted). The Supreme Court explained that the relevant

“question is whether an attorney’s representation amounted to incompetence under-'prevailing
professional norms,’ not whether it deviated from best practices or most common custom.” Id, at
740 (citing Strickland, 466 U.S. at 690).
Petitioner must show not only that counsel’s conduct was improper, but also that
it amounted to a constitutional deprivation. Petitioner must also show that the prosecutor s acts
so infected the trial as to make his conviction a denial of due process . Greer v. Miller, 483 U.S.
756, 765 (1987)(citation omitted). Petitioner must show that he was deprived of a fair trial.
Smithy. Phillips, 455 U.S. 209, 221 (1982); Ramseurv. Beyer, 983 F.2d 1215, 1239 (3dCir.
1992), cert, denied, 508 U.S. 947 (1993) (citations omitted) (stating court must distinguish
between ordinary trial error, and egregious conduct that amounts to a denial of due process).
Where the state court has already rejected an ineffective assistance of counsel
claim,

a federal court must defer to the previous decision, pursuant to 28 U.S.C. § 2254(d)(1).

If a state court has already rejected an ineffective-assistance claim, a federal court may grant
habeas relief if the decision was “contrary to, or involved an unreasonable application of, clearly
established Federal law, as
2254(d)(1).

determined by the Supreme Court of the United States. 28 U.S.C. §

Where the state court’s application of governing federal law is challenged, it must be
9

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 10 of 22

shown to be not only erroneous, but objectively unreasonable. Yarborough v. Gentry. 540 U.S.
1, 4, 124 S. Ct. 1 (2003) {per curiam) (citations omitted). The Supreme Court elaborated on this
standard:
Establishing that a state court’s application of Strickland was unreasonable under
§2254(d) is all the more difficult. The standards created by Strickland and §
2254(d) are both “highly deferential,” id., at 689; Lindh v. Murphy. 521 U.S. 320,
333 n. 7, 117 S. Ct. 2059 ..., and when the two apply in tandem, review is
“doubly” so, Knowles, 556 U.S. at 123,129 S. Ct. at 1420. The Strickland
standard is a general one, so the range of reasonable applications is substantial.
556 U.S. at 123, 129 S. Ct. at 1420. Federal habeas courts must guard against the
danger of equating unreasonableness under Strickland with unreasonableness
under § 2254(d). When § 2254(d) applies, the question is not whether counsel’s
actions were reasonable. The question is whether there is any reasonable
argument that counsel satisfied Strickland’s deferential standard.
Premo, .131 S. Ct. at 740 (citations omitted).
m. DISCUSSION.
Petitioner claims that trial counsel was ineffective for (a) failing to pursue the
joinder of offenses which were the same, related or “multiplicious” and (b) failing to move to
reduce the “multiplicious” offenses to single counts, leaving Petitioner foreseeably exposed to
double jeopardy and/or a breach of the plea agreement. Respondents note that these claims were
not “ fairly presented” to eveiy level of Pennsylvania’s established appellate process and are thus

procedurally defaulted.
Petitioner contends that his trial counsel was ineffective for allowing him to plead
guilty to two offenses that he believes violate his constitutional rights proscribing double
jeopardy. He presented a similar claim in his first PCRA petition. Judge Maria Dantos, sitting as
the PCRA court, opined the following:
The Defendant avers that Attorney Makoul was ineffective for advising him to
10

Case 5:15-CV-02703-CMR Document 26 Filed 04/30/18 Page 11 of 22

Specifically, the Defendant
enter into pleas that violated 18 Pa. C.S.A. § 110
asserts that he was charged with Persons Not to Possess a Firearm for possessing a
9 mm Smith and Wesson semiautomatic firearm that was taken during a burglary
in Hamburg, Pennsylvania, to which he entered a guilty plea on February 27,
2012. The Defendant further argues that because he entered such a guilty plea, the
Commonwealth was legally precluded from prosecuting him for the burglary that
occurred on May 29, 2012, to which he entered a guilty plea on September 10,
2012. This argument is legally flawed.
This Court recognizes that Section 110 of the Criminal Codes requfres that the
Commonwealth proceed with all charges arising out of the same criminal episode
by prosecuting them together. However, the Defendant’s possessory crime that
occurred in the City of Allentown, Lehigh County, on June 3, 2011, is a totally
separate criminal episode from the burglary that occurred on May 28, 2011, m
Hamburg, Pennsylvania. This Court notes that the Defendant did not enter a
guilty plea to the theft of the subject firearm on February 27, 2012. Instead, the
Defendant pled guilty to Person Not to Possess a Firearm. This offense has
nothing to do with how the firearm was acquired, but addresses the fact that the
firearm was in the Defendant’s possession in contravention of the law. Therefore,
the Defendant’s guilty plea to Persons Not to Possess a Firearm that was entered
on February 27, 2012, does not prohibit the later prosecution for the Burglary m
which the firearm was taken. Based on the foregoing, Attorney Makoul cannot be
deemed ineffective for advising the Defendant that there were no viable or
reco gnizable legal issues with regard to the Defendant’s “double jeopardy1
concern.
Commonwealth v. Torres, CCP Lehigh, pp. 4-6 ((Jun 24, 2013). The Superior Court affirmed
the PCRA courts’ denial of this claim as follows:
Appellant’s first claim asserts that trial counsel61 was ineffective in
advising him to enter guilty pleas on February 27, 2012 where there remained
outstanding duplicate and related charges arising form the same criminal episode
relating to the 2011 cases. Appellant also claims that, in view of the duplicate and
related charges alleged in the 2011 cases, trial counsel should have filed a pretrial
motion to dismiss case no. 289/2012 under the compulsory joinder rule.
Appellant maintains that trial counsel’s lack of familiarity with the compulsory
joinder rules caused her to advise him to accept the Commonwealth’s plea offer
on February 27, 2012. Appellant also asserts that counsel’s recommendations
were not the result of any reasonable, strategic or tactical decision and that her
advise subjected him to successive trials and consecutive punishments. For the
following reasons, we conclude that Appellant is not entitled to relief.

11

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 12 of 22

fii. In both the argument section of his brief and in his statement of questions
involved, Appellant asserts a layered claim relating to PCRA counsel’s failure to
raise a claim based upon trial counsel’s deficient stewardship. Appellant,
however, never raised a claim pertaining to PCRA counsel’s alleged
ineffectiveness before the PCRA court. Hence, we deem this aspect of
Appellant’s contentions waived. See Pa.R.A.P. 302(a); see also Commonwealth
v. Rigg, 84 A.3d 1080, 1085 (Pa. Super. 2014)(PCRA petitioner can preserve
claims challenging PCRA counsel’s ineffectiveness after counsel filed a
Turner/Finley letter by seeking leave from the trial court to amend his petition,
by including such claims in response to the court’s notice of intent to dismiss, or
by otherwise raising such issues while the PCRA court retains jurisdiction). We
shall therefore address only Appellant’s complaints about the performance of
trial counsel.
fh. Throughout his brief, Appellant refers interchangeably to “double jeopardy”
and to the compulsory joinder statute found at 18 Pa.C.S.A. § 110. Appellant’s
references to double jeopardy, however, are not separately developed through
citations to pertinent authority. This Court has found waiver where claims have
not been developed through citation to pertinent authorities. Pa.R.A.P. 2119; see
also Commonwealth v. Cox, 72 A.3d 719, 721 n.3 (Pa. Super. 2013). We have
also said that, “Consideration of the constitutional protections contained in the
double jeopardy clauses [of the federal and state constitutions] is necessary
where the statutory provisions relating to subsequent prosecutions are not
applicable.” Commonwealth v. Keenan, 530 A.2d 90, 93 (Pa. Super. 1987).
Section 110 of the compulsory joinder statute addresses situations where a
former prosecution for a different offense is alleged to compel joinder. Id. at 92.
That is precisely the claim that Appellant raises in this appeal. For each of these
reasons, we shall confine our analysis to an examination of section 110 and its
application to the circumstances in this case.

As stated supra at footnote six, section 110 of the compulsory joinder
statute applies to situations where it is alleged that a former prosecution for a
different offense compels joinder. See 18 Pa. C.S.A. § 110.

By the plain terms of section 110, a former prosecution precludes a
subsequent prosecution only when the former prosecution results in an acquittal or
a conviction. Appellant cites his February 27, 2012 pleas as the former
prosecution that triggered the Commonwealth’s obligation to prosecute the
burglary charges alleged in case no. 289/2012 in the same proceeding. As we
stated above, Appellant, on February 27, 2012, pled guilty to persons not to
possess in case no. 2822/201 lfc and entered a nolo contendere plea to resisting
arrest in case no. 2828/2011. In exchange for Appellant’s pleas, the
Commonwealth agreed to nolle pros case no. 2821/201 lfe and further agreed not
to pursue the other charges alleged in case nos. 2822/2011 and 2828/2011. Under
12

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 13 of 22

the particular circumstances of this case, then, we must first identify the precise
offenses within the former prosecution that are capable of barring a subsequent
prosecution under section 110.
fn. The persons not to possess charge in case no. 2822/2011 related to the
recovery of the 9tnm handgun found in Appellant’s vehicle at the time of his
arrest.
fh The sole charge alleged at case no. 2821/2011 involved the offense of
persons not to possess. This charge arose from the recovery of a Glock handgun
that officers recovered form a garage that they searched after Appellant’s June 3,
2011 arrest.

Here, Appellant makes no claim that his conviction for resisting arrest
compelled the joinder of the burglary charges alleged at case no. 289/2012.
Moreover, pursuant to Appellant’s February 27, 2012 plea deal, the
Commonwealth agreed to nolle pros case no. 2821/2011 and further agreed not to
pursue other charges alleged in case no. 2822/2011 and 2828/2011. Black s Law
Dictionary defines nolle prosequi as “[a] legal notice that a lawsuit or prosecution
has been abandoned.” Black’s Law Dictionary, Eighth Edition at 1074. That
source goes on to state that,
[njolle prosequi is a formal entry on the record by the prosecuting
officer by which he declares that he will not prosecute the case
further, either as to some of the counts of the indictment, or as to
part of a divisible count, or as to some of the persons accused, or
altogether. It is a judicial determination in favor of [an] accused
and against his conviction, but it is not an acquittal, nor is it
equivalent to a pardon.
Id. (emphasis added); Commonwealth v. Ahearn, 670 A.2d 133, 135-136 (Pa
1996)(“Since a nolle prosequi acts neither as an acquittal nor a conviction, double
jeopardy does not attach to the original criminal bill or information.”). As such,
neither the charge alleged at case no. 2821/2011, nor the offenses withdrawn at
case nos 2822/2011 and 2828/2011, are capable of preclusive effect under the
express terms of section 110. Only Appellant’s guilty plea to persons not to
possess at case no. 2822/2011 (arising from the seizure of the 9mm handgun
found in Appellant’s vehicle) qualifies as a potentially preclusive offense under
section 110. We therefore review the facts underlying Appellant’s guilty plea to
that offense.
fn. We note Ahearn is legally distinguishable from the present case. In Ahearn,
our Supreme Court confronted the question of whether the Commonwealth
improperly reinstituted the exact same charges that had previously been nolle
pressed when the defendant entered a guilty plea to unrelated charges. By
contrast, in the present case, the Commonwealth withdrew a receiving stolen

13

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 14 of 22

property charge which arose from the fact that Appellant had been apprehended
with a 9mm firearm that had been reported stolen and later filed burglary charges
accusing Appellant of entering the residence of another without authority for the
purpose of committing a crime therein.

The Commonwealth described the factual basis for Appellant’s plea at the
hearing conducted on February 27, 2012. During that proceeding, the district
attorney entered the following recitation on the record:
On June 3rd, 2011, at approximately 4:19 p.m. members of the
Allentown Police Department stopped a burgundy over gold in
color Chevrolet Tahoe bearing Pennsylvania registration HND2110
in the 800 block of Hickory Street in Allentown.
It was being operated by [Appellant], who was wanted by police on
unrelated charges.
[A co-defendant] was seated in the front passenger [seat]. During
an inventory of the vehicle’s contents a Smith & Wesson model
659, 9 mm semi-automatic pistol, bearing a serial number TBF
2165 was located on the passenger front floorboard of the vehicle.
Upon checking the handgun for ownership, [an officer], learned
that the handgun had been reported stolen to Pennsylvania State
Police, Hamburg during a burglary and had subsequently been
entered into NCIC Clean as such.
It was later learned [] that the handgun was owned by [an
individual], as he had registered the firearm, Smith & Wesson 659,
manufactured serial number TBF 2165.
[The officer] did a check and it was determined that [Appellant]
did not have a license.
In addition, [the officer] obtained a copy of [Appellant’s] criminal
history and in 1997 [Appellant] pled guilty to burglary, a felony of
the first degree, which makes him a person prohibited from
possessing, using, manufacturing, controlling or selling a firearm
under Subsection of 6105.
N.T., 2/27/12, at 6-8. Appellant agreed to the Commonwealth’s recitation of the
facts without hesitation. Id. at 8 (indicating Appellant’s acceptance of “full
responsibility’ for the firearm despite the presence of an accomplice).
With these facts in mind, we now address Appellant’s claims that his
14

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 15 of 22

firearms conviction barred prosecution of the burglary offenses alleged at case no.
289/2012. Initially, appellant raises a claim under 18 Pa. C.S.A. § 110(l)(i).
Section 110(1)(I) povides that a prior conviction bars subsequent prosecution of
“any offense of which the defendant could have been convicted on the first
prosecution.” 18 Pa. C.S.A. § 110(1)(I). Appellant cites four factors supporting
his contention that his guilty plea precluded later prosecution of burglary charges
under section 110(l)(i). First, Appellant notes that the Commonwealth, on
October 5, 2011, filed a single complaint in case no. 289/2012 that encompassed
both burglary and firearms related offenses. See Appellant s Brief at 16-18.
Second, Appellant claims that the two prosecutions could have been consolidated
because offenses charged in both cases {i.e.firearms possession charges)
constituted a single continuous possession. See id. at 18-22. Third, Appellant
alleges that the two prosecutions could have been consolidated because the
receiving stolen property charge in the first prosecution was a lesser-included
offense of the burglary charges leveled in the second prosecution. See id. at 2223. Fourth, Appellant asserts that he could have been convicted of both
prosecutions on February 27, 2012 because the Commonwealth filed notice,
pursuant to Pa.R.Crim.P. 582, of its intent to try all of Appellant’s offenses (i.e.
the 2011 cases and the 2012 cases) in a single proceeding in which Appellant and
his accomplices were named as defendants. See id. at 23-25. Notwithstanding
Appellant’s contentions, even a cursory review of the admitted factual basis of
Appellant’s guilty plea reveals that it could not support a conviction for burglary.
Hence, Appellant’s claim under section 110(l)(i) lacks merit and trial counsel
cannot be deemed ineffective for failing to consider or take action under this
provision.
Appellant next asserts that the robbery offenses charged in case no. 2012
should have been joined in the prior prosecution under section 110(l)(ii).

Appellant argues that there are common issues of law and fact that run between
.
the two prosecutions. To establish the requisite logical and factual relationship,
Appellant claims that the burglaries, his firearms conviction, and the offenses that
were nolle prossed or withdrawn following the entry of his pleas on February 27,
2012 (e.g. receiving stolen property) all arose from a single criminal episode. For
example, Appellant argues that when he burglarized the residence of one of his
victims on May 28, 2011 and stole firearms that were located within the home, he
simultaneously committed burglary, receiving stolen property, and persons not to
possess firearms. See Appellant’s Brief at 31. Appellant then argues that the two
prosecutions involve factual duplication since the victims of his offenses would be
called upon to prove the theft charges in the first prosecution as well as the
burglary offenses in the second prosecution. See id. at 34. Appellant seems to
suggest that, given the logical relationship between the first and second
15

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 16 of 22

prosecutions, it was improper for the Commonwealth to institute burglary charges
after it withdrew the receiving stolen property charge on February 27, 2012 since
the withdrawal of the theft charge led Appellant to believe that no further
prosecution would be forthcoming. See id. at 33 (noting that the receiving stolen
property charge substantially duplicates the burglary charges and that the
withdrawal of the receiving charge was part of the quid pro quo of the February
27, 2011 plea agreement); see also Ahearn, 670 A.2d at 136 (to substantiate claim
that Commonwealth was barred from reinstating nolle prossed charges following
entry of guilty plea, appellant was required to show an actual representation by the
Commonwealth or a commitment by the Commonwealth which led appellant to
reasonably believe that guilty plea obligated the Commonwealth to withdraw the
charges as part of the plea agreement).
The record refutes Appellant’s understanding and firmly establishes that
there is no logical relationship between Appellant’s firearms conviction and the
subsequent burglary prosecution. At the February 27, 2012 plea hearing, the trial
court stated on the record that, notwithstanding Appellant’s pleas to persons not to
possess and resisting arrest, Appellant still had open cases. N.T., 2/27/12, at 3.
Appellant nodded his head in agreement with the trial court. Id. Then, after the
trial court accepted Appellant’s pleas, the following exchange between the court,
trial counsel, and Appellant took place on the record:
[Trial Counsel]: Your Honor, he does have other charges,
obviously, that he needs to resolve here in Lehigh County. This is
a - and elsewhere, as you heard. So this is a maximum penalty.
It’s within the standard range. Other than that, there really is
nothing more to say.
The Court: Anything that you want to say?
‘ [Appellant]: No.
Id. at 15.
The record contains no evidence of an agreement by the Commonwealth to
forego Appellant’s burglary charges as part of the plea agreement entered by the
parties on February 27, 2012. The guilty plea colloquy does not establish an
interrelationship between the pleas entered on February 27, 2012 and the
subsequent burglary charges. In exchange for Appellant’s pleas to resisting arrest
and persons not to possess, the Commonwealth agreed to nolle pros case no.
2821/2011 and further agreed not to pursue the other charges alleged in case nos.
2822/2011 and 2828/2011. The facts placed on the record at Appellant’s first plea
hearing related exclusively to resisting arrest and a discreet [sic] firearms
possession charge relating to the date of Appellant’s apprehension. Moreover, the
written plea colloquy signed by Appellant states that he received no other
16

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 17 of 22

promises (apart from the plea agreement) that induced his entry of a plea. The
PCRA court found that Appellant understood the terms and consequences of his
guilty pleas. Thus, Appellant has not established that the withdrawal of any
charges on February 27, 2012 led him to believe that he would not face
prosecution for the burglaries that he committed.
Turning to the logical relationship between Appellant’s possessory
firearms conviction and the subsequent burglary charges, we find no error in the
PCRA court’s conclusion that this claim lacked merit.... For the reasons
expressed by the PCRA court, we conclude that Appellant is not entitled to relief
under section 110(l)(ii).
Commonwealth v. Torres, 2117 EDA 2013, Slip. Op.,pp. 7-8, 10-15, 17-21 (Pa. Super. Oct. 31,
2014). If a state court has already rejected an ineffective-assistance claim, a federal court may
grant habeas relief if the decision was “contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the Umted States. 28
U.S.C. § 2254(d)(1). See also Vega v. Klem, No. CIV.A. 03-5485, 2005 WL 3216738, at 6
(E.D. Pa. Nov. 29, 2005)(citing 28 U.S.C. § 2254(d)(1); Williams v. Taylor, 529 U.S .362,404405 (2000); Fountain v. Kyler, 420 F.3d 267, 272-273 (3d Cir. 2005)) . Where the state court’s
application of governing federal law is challenged, it must be shown to be not only erroneous, but
objectively unreasonable. Yarborough v. Gentry, 540 U.S. 1, 4, 124 S. Ct. 1 (2003)(per
curiam){citations omitted). Petitioner has not identified any decision of the trial court or the
appellate court which is contrary to, or an unreasonable application of, Sixth Amendment
jurisprudence. Petitioner, therefore, does not meet his burden of proving ineffective assistance of
counsel on this claim and it is recommended that this claim should be denied.
To the extent that any claims have been raised that were not exhausted in the state
courts, these claims are procedurally defaulted and unreviewable. The Pennsylvania Superior
Court did not address Petitioner’s claims in the context of a double jeopardy violation. Petitioner

17

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 18 of 22

failed to meaningfully develop a double jeopardy claim in his brief to the Superior Court,
prompting the Superior Court to determine the claim waived under Pa.R.A.P. 2119.
Commonwealth v. Torres, No. 2117 EDA 2013, slip op. at 8 n.6 (Pa. Super. Oct. 31, 2014).
Pursuant to Rule 2119, Pennsylvania courts have routinely and consistently found that the failure
to adequately develop claims in any meaningful way constitutes waiver of those claims. See,
Commonwealth v. Johnson, 985 A.2d 915 (Pa. 2009) (holding appellate claim waived where
appellant fails to discuss or develop issue in any meaningful way). Because the Superior Court
refused to address defendant’s double jeopardy claim based on an adequate and independent state
procedural rule, Petitioner’s double jeopardy claim is defaulted and unreviewable. State
appellate review of this claim is now foreclosed.
In addition, this Court will not entertain claims that allege only errors of state law.
Habeas relief is available only to those petitioners who claim that their judgment of sentence
violates federal constitutional rights. See 22 U.S.C. § 2254(a). Errors of state law are not
cognizable. See, ug,, Priester v. Vaughn. 382 F.3d 394, 402 (3d Cir. 2004) (“Federal courts
reviewing habeas claims cannot reexamine state court determinations on state-law questions.”).
Because the Superior Court resolved Petitioner’s claim within the context of Pennsylvania’s
compulsory joinder statute, a state law claim, this issue is unexhausted, procedurally defaulted,
and unreviewable. See Commonwealth v. Torres. No. 2117 EDA 2013, slip op. at 8, n.6 (Pa.
Super. Oct. 31, 2014) (internal citations omitted).
Petitioner’s judgment of sentence in case numbers 2822/2011 and 2828/2011
became final on March 28, 2012, upon the expiration of the time period for filing a direct appeal.
See Pa.R.Crim.P. 720(A)(3). Petitioner’s judgment of sentence in case numbers 282/2012,
18

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 19 of 22

289/2012, and 3824/2012 became final on October 10, 2012, upon the expiration of the time
period for filing a direct appeal. The PCRA one-year statute of limitations would thus bar
Petitioner from presenting claims in a new PCRA petition. See 42 Pa.C.S. § 9545(b)(1). These
claims are also procedurally defaulted because they were not properly presented to the state
courts, and independent and adequate state law grounds now preclude state court review. See
Coleman, 501 U.S. at 729.
Procedural default can only be overcome with a showing of “cause and prejudice”
or by showing a “fundamental miscarriage of justice.” Werts v. Vaughn, 228 F.3d 178, 192 (3d
Cir. 2000); Coleman, 501 U.S. at 750. To show “cause,” a petitioner must establish that “some
objective factor external to the defense impeded counsel’s efforts to comply with the State’s
procedural rule.” Murray v. Carrier, 477 U.S. 478, 488 (1986). “Prejudice” requires that the
“habeas petitioner ... show ‘not merely that the errors at... trial created a possibility of
prejudice, but that they worked to his actual and substantial disadvantage, infecting his entire
trial with error of constitutional dimensions.’” Id. at 494 (quoting United States v. Frady, 456
U.S. 152, 170 (1982)).
If a petitioner is unable to demonstrate cause and prejudice, the defaulted claims
may still be reviewed if the failure to do so would result in a fundamental miscarriage ofjustice.
Coleman, 501 U.S. at 748. The miscarriage of justice exception is “explicitly tied .. . to the
petitioner’s innocence.” Schlup v. Delo, 513 U.S. 298, 321 (1995). An actual innocence claim
“requires petitioner to support his allegations of constitutional error with new reliable evidence
_whether it be exculpatory scientific evidence, trustworthy eyewitness accounts, or critical
physical evidence - that was not presented at trial.” Id, at 324. Petitioner has not produced any
19

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 20 of 22

new evidence demonstrating his actual innocence. He alleges no new reliable scientific or
physical evidence and presents no trustworthy eyewitness exculpatory statements. In fact, at the
May 29, 2013, evidentiary hearing, Petitioner admitted to the court that he was not innocent of
the charges to which he pled guilty.
/

Petitioner attempts to excuse the procedural default by alleging that PCRA
counsel was ineffective for failing to present these claims in state court. “Under Martinez v.
Rvan, —U.S. — , 132 S.Ct. 1309 (2012), the failure of collateral attack counsel to raise an
ineffective assistance of trial counsel claim in an initial-review collateral proceeding can
constitute cause’ if (1) collateral attack counsel’s failure itself constituted ineffective assistance
of counsel under Strickland, and (2) the underlying ineffective assistance of trial counsel claim is
‘a substantial one.’” Glenn v. Wvnder. 743 F.3d 402, 409-10 (3d Cir. 2014)(citing Martinez. 132
S.Ct. at 1319). The default will be excused only where the petitioner establishes that PCRA
counsel’s conduct was such that no competent attorney would have followed it, and that “but for
counsel’s unprofessional errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 687, 694. In order to establish that a claim is “substantial,” Petitioner
must demonstrate that “the claim has some merit.” Martinez. 132 S.Ct. at 1318. In making this
determination, the Martinez Court advises courts to adopt the test normally used for deciding
whether it is appropriate to issue a certificate of appealability: if “reasonable jurists” would fmd
the claim to be “debatable.” See Miller-El v. Cockrell. 537 U.S. 322, 338 (2003); Martinez. 132
S.Ct. at 1318-19.
Petitioner’s attempt to invoke the exception to procedural default announced in
Martinez fails. Appointed PCRA counsel reviewed the record and filed a letter pursuant to
20

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 21 of 22

Commonwealth v. Finley, 550 A.2d 213 (Pa. Super. 1988), stating that the issues raised in the
PCRA petition were meritless. PCRA counsel also filed a Petition to Withdraw as Counsel, and
the PCRA court permitted counsel’s withdrawal prior to the commencement of the evidentiary
hearing conducted on May 29, 2013. As noted by the Pennsylvania Superior Court in its opinion
denying PCRA relief, a “PCRA petitioner can preserve claims challenging PCRA counsel’s
effectiveness after counsel files a Tumer/Finley letter by seeking leave from the trial court to
amend his petition, by including such claims in response to the court’s notice of intent to dismiss,
or by otherwise raising such issue while the PCRA court retains jurisdiction.” Commonwealth v.
Torres (citing Commonwealth v. Rigg, 84 A.3d 1080,1085 (Pa. Super. 2014). Petitioner pursued
none of those avenues of relief. Thus, Petitioner fails to invoke the narrow exception to the rules
of procedural default carved out by Martinez, and his claims remain unreviewable.
IV.

CERTIFICATE OF APPEALABILITY.
The court must also determine whether to recommend granting a certificate of

appealability (“COA”) with respect to the Petitioner’s claims. A COA can issue if “jurists of
reason would find it debatable whether the petition states a valid claim of the denial of a
constitutional right and [if] jurists of reason would find it debatable whether the district court was
correct in its [] ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). The court is of the view
that reasonable jurists would not debate the court’s determinations, and a COA should not be
granted.
For all of the above reasons, I make the following:

21

*■

I

Case 5:15-cv-02703-CMR Document 26 Filed 04/30/18 Page 22 of 22

RECOMMENDATION
AND NOW, this 30th

day of April, 2018, IT IS RESPECTFULLY

RECOMMENDED that the Petition for Writ of Habeas Corpus filed pursuant to 28 U.S.C. §
2254 (Doc. No. 1) should be DENIED with prejudice and DISMISSED without an evidentiary
hearing. There is no probable cause to issue a certificate of appealability.
The Petitioner may file objections to this Report and Recommendation. See Local
Civ. R. 72.1. Failure to timely file objections may constitute a waiver of any appellate rights.
BY THE COURT:
/s/ Henry S. Perkin
HENRY S. PERKIN
UNITED STATES MAGISTRATE JUDGE

22

Case: 19-3398

Document: 27

Page: 1

Date Filed: 06/04/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-3398

JOSE LUIS TORRES,
Appellant
v.

SMITHFIELD SCI; DISTRICT ATTORNEY LEHIGH COUNTY;
ATTORNEY GENERAL PENNSYLVANIA

(E.D. Pa. Civ. No. 5-15-CV-02703)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the

f

Case: 19-3398

Document: 27

Page: 2

Date Filed: 06/04/2020

panel and the Court en banc, is denied.

BY THE COURT,

s/Patty Shwartz
Circuit Judge
Date: June 4, 2020
;

I

kr/cc: Jose Luis Torres
Heather F. Gallagher, Esq.
Ronald Eisenberg, Esq.

IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT

COMMONWEALTH OF PENNSYLVANIA, : No. 872 MAL 2014
Respondent
Petition for Allowance of Appeal from the
Order of the Superior Court
v.

JOSE LUIS TORRES,
Petitioner

ORDER

PER CURIAM
AND NOW, this 7th day of April, 2015, the Petition for Allowance of Appeal is
DENIED.

A True Copy Elizabeth E. Zisk
As Of 4/7/2015
Attest ,__________ _
Chis'f Clerk
v
Supreme Court of Pennsylvania

f

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

IN THE SUPERIOR COURT OF
PENNSYLVANIA

Appellee
v.
JOSE LUIS TORRES
Appellant

No. 2117 EDA 2013

Appeal from the PCRA Order June 21, 2013
In the Court of Common Pleas of Lehigh County
Criminal Division at No(s): CP-39-CR-0000282-2012
CP-39-CR-0000289-2012
CP-39-CR-0002821-2011
CP-39-CR-0002822-2011
CP-39-CR-0002828-2011
CP-39-CR-0003824-2012

BEFORE:

MUNDY, OLSON and WECHT, JJ.

MEMORANDUM BY OLSON, J.:

FILED OCTOBER 31, 2014

Appellant, Jose Luis Torres, appeals, pro se, from an order entered on
June 21, 2013 that denied his petition filed pursuant to the Post conviction
Relief Act (PCRA), 42 Pa.C.S.A. §§ 9541-9546. We affirm.
Between June 2010 and May 2011, Appellant committed a series of
ten burglaries in Lehigh County and neighboring jurisdictions. Thereafter, on
June

3,

2011,

officers with the Allentown

and

Upper Saucon

Police

Departments, acting on information from confidential sources and pursuant
to an arrest warrant on unrelated charges, stopped a vehicle operated by
Appellant. A struggle ensued but the officers were eventually able to subdue

cn

J-S47017-14

Appellant.

During a subsequent inventory search, the officers discovered a

9mm semi-automatic handgun on the front passenger floorboard of the
vehicle.

Further investigation also revealed that 1) the 9mm handgun had

been reported' stolen, 2) Appellant had a

prior felony conviction that

prohibited him from possessing a firearm, and 3) Appellant did not have a
license to carry a firearm on the date of his apprehension.
On July 28, 2011, the Commonwealth filed three criminal informations
that charged Appellant with the following offenses:1
CP-39-CR-2821-2011
Count 1 - Persons not to possess firearms, 18 Pa.C.S.A.
§ 6105(a)(1).
CP-39-CR-2822-2011
Count 1
§ 3925(a).

Receiving

stolen

property,

18

Pa.C.S.A.

Count 2 - Persons not to possess firearms, 18 Pa.C.S.A.
§ 6105(a)(1).
Count 3 - Firearms not to be carried without a license, 18
Pa.C.S.A. § 6106(a)(1).
CP-39-CR-2828-2011
Count 1 - Aggravated assault, 18 Pa.C.s.a. § 2702(a)(3).
Recklessly endangering
Count 2
Pa.C.S.A. § 2705.

another person,

18

1 Hereafter, we shall collectively refer to the charges filed on July 28, 2011
as the "2011 cases."

- 2 -

J-S47017-14

Count 3 - Resisting arrest, 18 Pa.C.S.A. § 5104.
On

February

14, 2012, the Commonwealth filed three additional

criminal informations against Appellant that charged as follows:2
CP-39-CR-282-2012
Count 1 - Burglary, 18 Pa.C.S.A. § 3502(a).
Count 2 - Criminal trespass, 18 Pa.C.S.A. § 3503(a)(l)(ii).
Count 3 - Theft by unlawful taking, 18 Pa.C.S.A. § 3921(a).
Count 4
§ 3925(a).

Receiving

stolen

property,

18

Pa.C.S.A.

Count 5 - Criminal mischief, 18 Pa.C.S.A. § 3304(a)(5).
CP-39-CR-289-2012
Counts 1, 7, 13, 19, 25, 33, 39 - Burglary, 18 Pa.C.S.A.
§ 3502(a).
Counts 2, 8, 14, 20, 26, 34, 40 - Criminal trespass, 18
Pa.C.S.A. § 3503(a)(1)(H).
Counts 3, 9, 15, 21, 27, 35, 41 - Theft by unlawful taking,
18 Pa.C.S.a. § 3921(a).
Counts 4, 10, 16, 22, 28, 36, 42
property, 18 Pa.C.S.a. § 3925(a).

Receiving stolen

Counts 5, 11, 17, 23, 29, 37, 43 - Criminal mischief, 18
Pa.C.S.A. § 3304(a)(2).

2 Hereafter, we shall collectively refer to the charges filed on February 14,
2012 as the "2012 cases."

- 3 -

J-S47017-14

Counts 6, 12, 18, 24, 30, 38, 54 - Conspiracy to commit
burglary, 18 Pa.C.S.A. § 903(a), 3502(a).
Counts 31, 32, 44, 45, 46, 47, 48, 49, 50, 51, 52, 53 Persons not to possess, 18 Pa.C.S.A. § 6105(a)(1).
CP-39-CR-3824-2012
Counts 1 and 2 - Burglary, 18 Pa.C.S.A. § 3502(a).
On February 27, 2012, Appellant resolved the 2011 cases by entering
a negotiated plea agreement with the Commonwealth. See generally N.T.,
2/27/12, at 2-16.

Under the terms of the plea agreement, Appellant pled

guilty to persons not to possess in case no. 2822/2011 and entered a nolo
contendere plea to resisting arrest in case no. 2828/2011.
Appellant's

pleas,

the

Commonwealth

agreed

to

In exchange for

nolle pros

case

no.

2821/2011 and further agreed not to pursue the other charges alleged in
case nos. 2822/2011 and 2828/2011. Additionally, pursuant to the parties'
plea agreement, the court imposed a sentence of five to ten years'
incarceration for Appellant's persons not to possess conviction at case no.
2822/2011, together with a concurrent sentence of one to two years of
imprisonment for the resisting arrest charge in case no. 2828/2011.
On June 28,

2012, Appellant moved pro se to discontinue trial

counsel's representation. The trial court convened a hearing on Appellant's
motion on July 9, 2012. At the conclusion of the hearing, the court relieved
trial counsel of her duty to represent Appellant, but directed her to remain
attached to Appellant's cases as stand-by counsel.

- 4 -

J-S47017-14
Appellant resolved the 2012 cases by entering a separate negotiated
plea agreement with the Commonwealth on September 10, 2012.

See

generally N.T., 9/10/12, at 2-27. At the September 10, 2012 plea hearing,
Appellant pled guilty to ten counts of burglary3 and one count of criminal
conspiracy to commit burglary. In exchange for Appellant's guilty pleas, the
Commonwealth withdrew the remaining charges at case nos. 282/2012 and
289/2012.

In addition, pursuant to the parties' plea agreement, the court

sentenced Appellant to serve seven and one-half to 15 years on each of the
burglary and conspiracy charges.

The court also directed that these

sentences were to run concurrent to each other but consecutive to the
sentence imposed on February 27, 2012. Thus, the aggregate sentence for
Appellant's 2011 and 2012 cases was 12V2 to 25 years in prison.
Appellant filed a pro se PCRA petition on February

19,

2013.

Appellant's petition alleged that trial counsel rendered ineffective assistance
in advising him to enter into pleas that violated 18 Pa.C.S.A. § 110.
Appellant

also

claimed

that

his

sentence

was

illegal

and

that the

Commonwealth breached the parties' plea agreement when the sentences on
the 2011 and 2012 cases were run consecutively to each other instead of
concurrently.

On February 26, 2013, the PCRA court appointed counsel to

3 As indicated above, one count of burglary was charged at case no.
282/2012, seven were charged at case no. 289/2012, and two were charged
at case no. 3824/2012.

- 5 -

J-S47017-14
represent Appellant.

After reviewing the record, PCRA counsel concluded

that the issues raised in Appellant's petition lacked merit.
counsel

forwarded

Appellant

a

"no-merit"

letter

Accordingly,
pursuant

to

Commonwealth v. Turner, 544 A.2d 927 (Pa. 1988) and Commonwealth
v. Finley, 550 A.2d 213 (Pa. Super. 1988) and moved to withdraw as
counsel on March 21, 2013. The trial court convened an evidentiary hearing
to address Appellant's petition for collateral relief on May 29, 2013. At the
commencement of this hearing, the court permitted PCRA counsel to
withdraw. See N.T., 5/29/13, at 6. Appellant proceeded pro se throughout
the proceedings.

Following the close of testimony, the PCRA court took the

matter under advisement.

On June 24, 2013, the PCRA court issued an

opinion and order denying Appellant's petition. This timely appeal followed.4
Appellant's brief raises the following questions for our review:
WHETHER PCRA COUNSEL WAS INEFFECTIVE FOR FAILING TO
RAISE THE INEFFECTIVENESS OF TRIAL COUNSEL, WHERE
TRIAL COUNSEL: (A) ADVISED THE APPELLANT TO ENTER
GUILTY PLEAS ON FEBRUARY 27, 2012, WHEN THERE EXISTED
OTHER DUPLICATE AND RELATED CHARGES, AND/OR CHARGES
WHICH WERE PART OF THE SAME CRIMINAL EPISODE, IN A
SEPARATELY FILED MATTER; AND (B) FAILED TO FILE A TIMELY
OMNIBUS PRETRIAL MOTION TO DISMISS THE CRIMINAL
INFORMATION AT CP-39-CR-0000289-2012, ON DOUBLE
JEOPARDY GROUNDS?
WHETHER THE CONSECUTIVE SENTENCE IMPOSED ON 9/10/12,
FOR BURGLARY, IS ILLEGAL, WHERE: (A) IT VIOLATES THE
4 The requirements of Pa.R.A.P. 1925(c) have been satisfied in this case.

- 6 -

J-S47017-14

CONCURRENT TERMS
OF THE
FORMER 2/27/12
PLEA
AGREEMENT, INVOLVING THAT SAME THEFT BY RECEIVING
STOLEN PROPERTY; OR (B) WHERE THE COMMONWEALTH
DISMISSED THAT "THEFT" AS PART OF THE FORMER
AGREEMENT; AND/OR (C) WHERE THE FIREARM'S CHARGE THE
BURGLARY RAN CONSECUTIVE TO WAS ACTUALLY DISMISSED,
AS PART OF THE TERMS OF THE SECOND AGREEMENT, IN
EXCHANGE FOR THE PLEAS BEING ENTERED?
Appellant's Brief at 3.
Appellant challenges an order that denied his petition for relief under
the PCRA.

Our standard of review for an order denying collateral relief is

well settled. We have said:
This Court's standard of review regarding an order dismissing a
petition under the PCRA is whether the determination of the
PCRA court is supported by evidence of record and is free of
legal error. In evaluating a PCRA court's decision, our scope of
review is limited to the findings of the PCRA court and the
evidence of record, viewed in the light most favorable to the
prevailing party at the trial level. We may affirm a PCRA court's
decision on any grounds if it is supported by the record.
Commonwealth v. Rivera, 10 A.3d 1276, 1279 (Pa. Super. 2010) (internal
citations omitted).
Appellant's first claim asserts that trial counsel5 was ineffective in
advising him to enter guilty pleas on February 27, 2012 where there

5 In both the argument section of his brief and in his statement of questions
involved, Appellant asserts a layered claim relating to PCRA counsel's failure
to raise a claim based upon trial counsel's deficient stewardship. Appellant,
however, never raised a claim pertaining to PCRA counsel's alleged
ineffectiveness before the PCRA court.
Hence, we deem this aspect of
Appellant's contentions waived.
See Pa.R.A.P. 302(a); see also
Commonwealth v. Rigg, 84 A.3d 1080, 1085 (Pa. Super. 2014) (PCRA
(Footnote Continued Next Page)
- 7 -

J-S47017-14
remained outstanding duplicate and related charges arising from the same
criminal episode relating to the 2011 cases.

Appellant also claims that, in

view of the duplicate and related charges alleged in the 2011 cases, trial
counsel should have filed a pretrial motion to dismiss case no. 289/2012
under the compulsory joinder rule.6 Appellant maintains that trial counsel's
lack of familiarity with the compulsory joinder rules caused her to advise him
to accept the Commonwealth's plea offer on February 27, 2012.

Appellant

also asserts that counsel's recommendations were not the result of any
reasonable, strategic or tactical decision and that her advice subjected him
(Footnote Continued)------ !

petitioner can preserve claims challenging PCRA counsel's effectiveness after
counsel files a Turner/Finley letter by seeking leave from the trial court to
amend his petition, by including such claims in response to the court's notice
of intent to dismiss, or by otherwise raising such issues while the PCRA court
retains jurisdiction). We shall therefore address only Appellant's complaints
about the performance of trial counsel.
6 Throughout his brief, Appellant refers interchangeably to "double jeopardy"
and to the compulsory joinder statute found at 18 Pa.C.S.A. § 110.
Appellant's references to double jeopardy, however, are not separately
developed through citations to pertinent authority. This Court has found
waiver where claims have not been developed through citation to pertinent
authorities. Pa.R.A.P. 2119; see also Commonwealth v. Cox, 11 A.3d
719, 721 n.3 (Pa. Super. 2013). We have also said that, "Consideration of
the constitutional protections contained in the double jeopardy clauses [of
the federal and state constitutions] is necessary where the statutory
provisions relating' to subsequent prosecutions are not applicable."
Commonwealth v. Keenan, 530 A.2d 90, 93 (Pa. Super. 1987). Section
110 of the compulsory joinder statute addresses situations where a former
prosecution for a different offense is alleged to compel joinder. Id. at 92.
That is precisely the claim that Appellant raises in this appeal. For each of
these reasons, we shall confine our analysis to an examination of section
110 and its application to the circumstances in this case.

- 8 -

J-S47017-14

to successive trials and consecutive punishments. For the following reasons,
we conclude that Appellant is not entitled to relief.
To be eligible for relief under the PCRA, the petitioner must plead and
prove by a preponderance of the evidence that his conviction or sentence
resulted

from "one

or more" of the seven,

specifically

enumerated

circumstances listed in 42 Pa.C.S.A. § 9543(a)(2). One of these statutorily
enumerated circumstances is the "[(Ineffectiveness of counsel which, in the
circumstances of the particular case, so undermined the truth-determining
process that no reliable adjudication of guilt or innocence could have taken
place." 42 Pa.C.S.A. § 9543(a)(2)(H).
Counsel is, however, presumed to be effective and "the burden of
demonstrating ineffectiveness rests on [AJppellant."
Rivera, 10 A.3d 1276, 1279 (Pa. Super. 2010).

Commonwealth v.

To satisfy this burden,

Appellant must plead and prove by a preponderance of the evidence that:
his underlying claim is of arguable merit; (2) the particular
course of conduct pursued by counsel did not have some
reasonable basis designed to effectuate his interests; and, (3)
but for counsel's ineffectiveness, there is a reasonable
probability that the outcome of the challenged proceedings
would have been different.
Commonwealth v. Fulton, 830 A.2d 567, 572 (Pa. 2003).

"A failure to

satisfy any prong of the test for ineffectiveness will require rejection of the
claim." Id.

"[Cjounsel cannot be deemed ineffective for failing to raise a

meritless claim."

Commonwealth v. Tharp, 2014 WL 474578, *5 (Pa.

2014).
- 9 -

J-S47017-14
As stated supra at footnote six, section 110 of the compulsory joinder
statute applies to situations where it is alleged that a former prosecution for
a different offense compels joinder. See 18 Pa.C.S.A. § 110. We are guided
by the following principles in our review of claims that invoke section 110.
The compulsory joinder statute is a legislative mandate that a
subsequent prosecution for a violation of a provision of a statute
that is different from a former prosecution, or is based on
different facts, will be barred in certain circumstances. 18
Pa.C.S.A. § 110. As amended in 2002, Section 110 states in
relevant part:
§ 110. When prosecution barred by former prosecution for
different offense
Although a prosecution is for a violation of a different provision
of the statutes than a former prosecution or is based on different
facts, it is barred by such former prosecution under the following
circumstances:
(1) The former prosecution resulted in an acquittal or in a
conviction as defined in section 109 of this title (relating to when
prosecution barred by former prosecution for same offense) and
the subsequent prosecution is for:
(i) any offense of which the defendant could have been convicted
on the first prosecution;
(ii) any offense based on the same conduct or arising from the
same criminal episode, if such offense was known to the
appropriate
prosecuting
officer at the
time
of the
commencement of the first trial and occurred within the same
judicial district as the former prosecution unless the court
ordered a separate trial of the charge of such offense; or
Commonwealth v. Fithian, 961 A.2d 66, 71-72 (Pa. 2008).
By the plain terms of section 110, a former prosecution precludes a
subsequent prosecution only when the former prosecution results in an

- 10 -

J-S47017-14

acquittal or a conviction. Appellant cites his February 27, 2012 pleas as the
former prosecution

that triggered

the

Commonwealth's

obligation

to

prosecute the burglary charges alleged in case no. 289/2012 in the same
proceeding.

As we stated above, Appellant, on February 27, 2012, pled

guilty to persons not to possess in case no. 2822/20117 and entered a nolo
contendere plea to resisting arrest in case no. 2828/2011. In exchange for
Appellant's pleas, the Commonwealth agreed to nolle pros case no.
2821/20118 and further agreed not to pursue the other charges alleged in
case nos. 2822/2011 and 2828/2011. Under the particular circumstances of
this case, then, we must first identify the precise offenses within the former
prosecution that are capable of barring a subsequent prosecution under

section 110.
Here, Appellant makes no claim that his conviction for resisting arrest
compelled the joinder of the burglary charges alleged at case no. 289/2012.
Moreover,

pursuant to Appellant's February 27, 2012 plea deal, the

Commonwealth agreed to nolle pros case no. 2821/2011 and further agreed
not to pursue the other charges alleged in case nos. 2822/2011 and
7 The persons not to possess charge in case no. 2822/2011 related to the
recovery of the 9mm handgun found in Appellant's vehicle at the time of his
arrest.
8

The sole charge alleged at case no. 2821/2011 involved the offense of
persons not to possess. This charge arose from the recovery of a Glock
handgun that officers recovered from a garage that they searched after
Appellant's June 3, 2011 arrest.

- 11 -

J-S47017-14

2828/2011.

Black's Law Dictionary defines nolle prosequi as "[a] legal

notice that a lawsuit or prosecution has been abandoned."

Black's Law

Dictionary, Eighth Edition at 1074. That source goes on to state that,
[n]olle prosequi is a formal entry on the record by the
prosecuting officer by which he declares that he will not
prosecute the case further, either as to some of the counts of
the indictment, or as to part of a divisible count, or as to some of
the persons accused, or altogether. It is a judicial determination
in favor of [an] accused and against his conviction, but it is not
an acquittal, nor is it equivalent to a pardon.
Id. (emphasis added); Commonwealth v. Ahearn, 670 A.2d 133, 135-136
(Pa. 1996) ("Since a nolle prosequi acts neither as an acquittal nor a
conviction, double jeopardy does not attach to the original criminal bill or
information.").9 As such, neither the charge alleged at case no. 2821/2011,
nor the offenses withdrawn at case nos. 2822/2011 and 2828/2011, are
capable of preclusive effect under the express terms of section 110.

Only

Appellant's guilty plea to persons not to possess at case no. 2822/2011
(arising from the seizure of the 9mm handgun found in Appellant's vehicle)

9 We note Ahearn is legally distinguishable from the present case. In
Ahearn, our Supreme Court confronted the question of whether the
Commonwealth improperly reinstituted the exact same charges that had
previously been nolle prossed when the defendant entered a guilty plea to
unrelated charges. By contrast, in the present case, the Commonwealth
withdrew a receiving stolen property charge which arose from the fact that
Appellant had been apprehended with a 9mm firearm that had been
reported stolen and later filed burglary charges accusing Appellant of
entering the residence of another without authority for the purpose of
committing a crime therein.

- 12 -

J-S47017-14
qualifies as a potentially preclusive offense under section 110. We therefore
review the facts underlying Appellant's guilty plea to that offense.
The Commonwealth described the factual basis for Appellant's plea at
the hearing conducted on February 27, 2012.

During that proceeding, the

district attorney entered the following recitation on the record:
On June the 3rd, 2011 at approximately 4:19 p.m. members of
the Allentown Police Department stopped a burgundy over gold
in color Chevrolet Tahoe bearing Pennsylvania registration HND
2110 in the 800 block of Hickory Street in Allentown.
It was being operated by [Appellant], who was wanted by police
on unrelated charges.
[A co-defendant] was seated in the front passenger [seat].
During an inventory of the vehicle's contents a Smith & Wesson
model 659, 9mm semi-automatic pistol, bearing a serial number
TBF 2165 was located on the passenger front floorboard of the
vehicle.
Upon checking the handgun for ownership, [an officer], learned
that the handgun had been reported stolen to Pennsylvania
State Police, Hamburg during a burglary and had subsequently
been entered into NCIC Clean as such.
It was later learned [] that the handgun was owned by [an
individual], as he had registered the firearm, Smith & Wesson
659, manufactured serial number TBF 2165.
[The officer] did a check and it was determined that [Appellant]
did not have a license.
In addition, [the officer] obtained a copy of [Appellant's] criminal
history and in 1997 [Appellant] pled guilty to burglary, a felony
of the first degree, which makes him a person prohibited from
possessing, using, manufacturing, controlling or selling a firearm
under Subsection of 6105.

- 13 -

J-S47017-14

N.T., 2/27/12, at 6-8. Appellant agreed to the Commonwealth's recitation of
the facts without hesitation.

Id. at 8 (indicating Appellant's acceptance of

"full responsibility" for the firearm despite the presence of an accomplice).
With these facts in mind, we now address Appellant's claims that his
firearms conviction barred prosecution of the burglary offenses alleged at
case no. 289/2012.

§ H0(l)(i).

Initially, appellant raises a claim under 18 Pa.C.S.A.

Section

110(l)(i)

provides that a

prior conviction

bars

subsequent prosecution of "any offense of which the defendant could have
been

convicted

on

the

first

prosecution."

18

Pa.C.S.A.

§ 110(l)(i).

Appellant cites four factors supporting his contention that his guilty plea
precluded later prosecution of burglary charges under section 110(l)(i).
First, Appellant notes that the Commonwealth, on October 5, 2011, filed a
single complaint in case no. 289/2012 that encompassed both burglary and
firearms related offenses.

See Appellant's Brief at

16-18.

Second,

Appellant claims that the two prosecutions could have been consolidated
because offenses charged in both cases (/.e. firearms possession charges)
constituted a single continuous possession.

See id. at 18-22.

Third,

Appellant alleges that the two prosecutions could have been consolidated
because the receiving stolen property charge in the first prosecution was a
lesser-included offense of the burglary charges leveled

in the second

prosecution. See id. at 22-23. Fourth, Appellant asserts that he could have
been convicted of both prosecutions on February 27, 2012 because the

- 14 -

J-S47017-14
Commonwealth filed notice, pursuant to Pa.R.Crim.P. 582, of its intent to try
all of Appellant's offenses (/.e. the 2011 cases and the 2012 cases) in a
single proceeding in which Appellant and his accomplices were named as
defendants.

See id. at 23-25.

Notwithstanding Appellant's contentions,

even a cursory review of the admitted factual basis of Appellant's guilty plea
reveals that it could not support a conviction for burglary.

Hence,

Appellant's claim under section 110(l)(i) lacks merit and trial counsel cannot
be deemed ineffective for failing to consider or take action under this
provision.
Appellant next asserts that the burglary offenses charged in case no.
2012 should have been joined in the prior prosecution under section
110(l)(ii).
As has been summarized by our [Supreme] Court, Section
110(l)(ii) . . . contains four requirements which, if met, preclude
a subsequent prosecution due to a former prosecution for a
different offense:
(1) the former prosecution must have resulted in an acquittal or
conviction;
(2) the current prosecution is based upon the same criminal
conduct or arose from the same criminal episode as the former
prosecution;
(3) the prosecutor was aware of the instant charges before the
commencement of the trial on the former charges; and
(4) the current offense occurred within the same judicial district
as the former prosecution.
See [Commonwealth v.] Nolan, 855 A.2d [834, 839 (Pa.
2004)]; Commonwealth v. Hockenbury, 701 A.2d 1334, 1337
- 15 -

J-S47017-14
Each prong of this test must be met for
([Pa.] 1997).
compulsory joinder to apply.
Commonwealth v. Fithian, 961 A.2d 66, 71-72 (Pa. 2008) (parallel
citation omitted).
In this case, we focus our attention upon the second requirement
listed above, as we find it dispositive of Appellant's contentions. In deciding
whether the current prosecution is based upon the same criminal conduct or
arose from the same criminal episode as the former prosecution,10 our
Supreme Court has said that, "courts considering the logical relationship
prong [must look to] the temporal and logical relationship between the
charges to determine whether they arose from a single criminal episode."
Commonwealth v. Reid, 77 A.3d 579, 582 (Pa. 2013).

"Generally,

charges against a defendant are clearly related in time and require little
analysis

to

determine

that

a

single

criminal

episode

exists."

Commonwealth v. Hude, 458 A.2d 177, 181 (Pa. 1983). With respect to
whether a logical relationship exists, the Supreme Court has explained:
In ascertaining whether a number of statutory offenses are
logically related to one another, the court should initially inquire
as to whether there is a substantial duplication of factual, and/or
legal issues presented by the offenses. If there is duplication,
then the offenses are logically related and must be prosecuted at
one trial. The mere fact that the additional statutory offenses
involve additional issues of law or fact is not sufficient to create

10 This factor is commonly referred to as the "logical relationship" prong.
See Commonwealth v. Reid, 77 A.3d 579, 582 (Pa. 2013).

- 16 -

J-S47017-14
a separate criminal episode since the logical relationship test
does not require an absolute identity of factual backgrounds.
Id. (internal quotation marks omitted).

Substantial duplication of issues of

law and fact is a prerequisite, as de minimis duplication is insufficient to
establish a logical relationship between offenses.
Bracalielly, 658 A.2d 755, 761 (Pa. 1995).

Commonwealth v.

Where different evidence is

required to establish the defendant's involvement in criminal activity,
substantial duplication is not demonstrated.11 See id. at 761-62.
Appellant argues that there are common issues of law and fact that
run between the two prosecutions.

To establish, the requisite logical and

factual relationship, Appellant claims that the burglaries, his firearms
conviction, and the offenses that were nolle prossed or withdrawn following
the entry of his pleas on February 27, 2012 {e.g. receiving stolen property)
all arose from a single criminal episode. For example, Appellant argues that

11 In considering the temporal and logical relationship between criminal acts,
we are guided by the policy considerations that § 110 was designed to
serve:
(1) to protect a person accused of crimes from governmental
harassment of being forced to undergo successive trials for
offenses stemming from the same criminal episode; and (2) as a
matter of judicial administration and economy, to assure finality
without unduly burdening the judicial process by repetitious
litigation.
Commonwealth v. Anthony, 717 A.2d 1015, 1018-1019 (Pa. 1998)
(citation omitted).

- 17 -

J-S47017-14

when he burglarized the residence of one of his victims on May 28, 2011 and
stole firearms that were located within the home, he simultaneously
committed burglary, receiving stolen property, and persons not to possess
firearms. See Appellant's Brief at 31. Appellant then argues that the two
prosecutions involve factual duplication since the victims of his offenses
would be called upon to prove the theft charges in the first prosecution as
well as the burglary offenses in the second prosecution.

See id. at 34.

Appellant seems to suggest that, given the logical relationship between the
first and second prosecutions, it was improper for the Commonwealth to
institute burglary charges after it withdrew the receiving stolen property
charge on February 27, 2012 since the withdrawal of the theft charge led
Appellant to believe that no further prosecution would be forthcoming. See
id. at 33 (noting that the receiving stolen property charge substantially
duplicates the burglary charges and that the withdrawal of the receiving
charge was part of the quid pro quo of the February 27, 2011 plea
agreement); see also Ahearn, 670 A.2d at 136 (to substantiate claim that
Commonwealth was barred from reinstating nolle prossed charges following
entry of guilty plea, appellant was required to show an actual representation
by the Commonwealth or a commitment by the Commonwealth which led
appellant to reasonably believe that guilty plea obligated the Commonwealth
to withdraw the charges as part of the plea agreement).
The record refutes Appellant's understanding and firmly establishes
that there is no logical relationship between Appellant's firearms conviction
- 18 -

J-S47017-14

and the subsequent burglary prosecution.

At the February 27, 2012 plea

hearing, the trial court stated on the record that, notwithstanding Appellant's
pleas to persons not to possess and resisting arrest, Appellant still had open
cases.

INI.T., 2/27/12, at 3.

the trial court.

Appellant nodded his head in agreement with

Id. Then,-after the trial court accepted Appellant's pleas,

the following exchange between the court, trial counsel, and Appellant took
place on the record:
Your Honor, he does have other charges,
[Trial Counsel]:
obviously, that he needs to resolve here in Lehigh County. This
is a - and elsewhere, as you heard. So this is a maximum
penalty. It's within the standard range. Other than that, there
really is nothing more to say.
The Court: Anything that you want to say?
[Appellant]: No.
Id. at 15.
The

record

contains

no

evidence

of

an

agreement

by

the

Commonwealth to forgo Appellant's burglary charges as part of the plea
agreement entered by the parties on February 27, 2012.

The guilty plea

colloquy does not establish an interrelationship between the pleas entered
on February 27, 2012 and the subsequent burglary charges.

In exchange

for Appellant's pleas to resisting arrest and persons not to possess, the
Commonwealth agreed to nolle pros case no. 2821/2011 and further agreed
not to pursue the other charges alleged in case nos. 2822/2011 and
2828/2011. The facts placed on the record at Appellant's first plea hearing
- 19 -

J-S47017-14

related exclusively to resisting arrest and a discreet firearms possession
charge relating to the date of Appellant's apprehension.

Moreover, the

written plea colloquy signed by Appellant states that he received no other
promises (apart from the plea agreement) that induced his entry of a plea.
The

PCRA

court

found

that

Appellant

understood

the

terms

and

consequences of his guilty pleas. Thus, Appellant has not established that
the withdrawal of any charges on February 27, 2012 led him to believe that
he would not face prosecution for the burglaries that he committed.
Turning to the logical relationship between Appellant's possessory
firearms conviction and the subsequent burglary charges, we find no error in
the PCRA court's conclusion that this claim lacked merit.

In rejecting

Appellant's claim, the court stated:
[The PCRA court] recognizes that [s]ection 110 of the Criminal
Code requires that the Commonwealth proceed with all charges
arising out of the same criminal episode by prosecuting them
together. However, [Appellant's] possessory crime that occurred
in the City of Allentown, Lehigh County, on June 3, 2011, is a
totally separate criminal episode from the burglary that occurred
on May 28, 2011, in Hamburg, Pennsylvania. [The PCRA court]
notes that [Appellant] did not enter a guilty plea to the theft of
the subject firearm on February 27, 2012. Instead, [Appellant
pled guilty to [p]ersons [n]ot to [p]ossess a [f]irearm. This
offense has nothing to do with how the firearm was acquired,
but addresses the fact that the firearm was in [Appellant's]
possession in contravention of the law. Therefore, [Appellant's]
guilty plea to [p]ersons [n]ot to [p]ossess a [f]irearm that was
entered on February 27, 2012, does not prohibit the later
prosecution for the [b]urglary in which the firearm was taken.
Based on the foregoing, [trial counsel] cannot be deemed
ineffective for advising [Appellant] that there were no viable or
recognizable legal issues with regard to [Appellant's contentions
under section 110].
- 20 -

J-S47017-14

PCRA Court Opinion, 6/24/13, at 5-6 (emphasis in original). For the reasons
expressed by the PCRA court, we conclude that Appellant is not entitled to
relief under section 110( 1 )(ii).
In his final claim, Appellant alleges that the consecutive sentence
imposed on September 10, 2012 for his burglary conviction is illegal.
Appellant advances three reasons in support of his contention.

First,

Appellant claims that his burglary conviction should have merged with the
receiving stolen property charge that was withdrawn by the Commonwealth
as part of Appellant's February 27, 2012 plea agreement. Second, Appellant
asserts that the withdrawal of the persons not to possess charge alleged at
case no. 289 retroactively voided Appellant's prior conviction for that offense
at case no. 2822/2011. Third, Appellant claims that a consecutive sentence
in this case violates a promise he received to the effect that all of his theft
and firearms related offenses would be imposed concurrently. These claims
merit no relief.
This Court has held that:
The phrase 'illegal sentence' is a term of art in Pennsylvania
Courts that is applied to three narrow categories of cases. Those
categories are: (1) claims that the sentence fell outside of the
legal parameters prescribed by the applicable statute; (2) claims
involving merger/double jeopardy; and (3) claims implicating the
rule in Apprendi v. New Jersey, 530 U.S. 466 (2000).
Commonwealth v. Munday, 78 A.3d 661, 664 (Pa. Super. 2013) (internal
citations and parallel citations omitted).

- 21 -

J-S47017-14

In this case, Appellant does not allege that his sentence fell outside
the legal parameters prescribed by the applicable statute or that his
punishment ran afoul of Apprendi. In addition, for reasons largely related
to our prior analysis, we conclude that Appellant has failed to advance a
viable claim involving merger, double jeopardy, or compulsory joinder.
Thus, Appellant's final claim does not challenge the legality of his sentence.
Rather, Appellant objects to the trial court's exercise of its discretion to
impose consecutive sentences.12

This Court has previously held that

undeveloped challenges to the discretionary aspects of a sentence are not
cognizable under the PCRA. See Commonwealth v. Evans, 866 A.2d 442,
444-445 (Pa. Super. 2005). For these reasons, we conclude the Appellant's
sentencing claim merits no relief.
Order affirmed.
Judgment Entered.

uE
(

Joseph D. Seletyn, Esd^
Protho notary

Date: 10/31/2014

12 Appellant's sentencing challenge is not set forth under the rubric of an
ineffective assistance of counsel claim.

- 22 -

IN THE COURT OF COMMON PLEAS OF LEHIGH COUNTY, PENNSYLVANIA
CRIMINAL DIVISION

COMMONWEALTH OF PENNSYLVANIA
)
)

vs.
JOSE LUIS TORRES,
Defendant

Case No.

)
)
)

2822/2011
2828/2011
2821/2011
0282/2012
0289/2012
3824/2012

********

APPEARANCES:
CHARLES GALLAGHER, ESQUIRE,
CHIEF DEPUTY DISTRICT ATTORNEY,
On behalf of the Commonwealth

mr-

_i-r i
a-’
r~\

JOSE LUIS TORRES, DEFENDANT, Pro Se

cr
ro
-o

c:
ro

'k'k'k'k'k'k'k'k

■

OPINION

ro
ro

MARIA L. PANTOS. J.
On February 27, 2012, Defendant, Jose Torres, entered a guilty plea to
Person Not to Possess a Firearm1 in Case No. 2822/2011 and entered a nolo contendere
plea to Resisting Arrests in Case No. 2828/2011. (N.T. 2/27/12, p. 2). In exchange for
these pleas, the Commonwealth agreed to nolle pros Case No. 2821/2011 and not
pursue the other counts of the Criminal Informations in Case Nos. 2822/2011 and
2828/2011.

(N.T. 2/27/12, p. 2). Additionally, pursuant to the plea agreements, in

Case No. 2822/2011, the Court was bound to impose a sentence of not less than five (5)

i
2

18 Pa. C.S.A. § 6105(a)(1).
18 Pa. C.S.A. § 5104.

'

years nor more than ten (10) years in a state correctional institution, and the sentence
' imposed in Case No. 2828/2011 would run concurrently thereto.
3).

(N.T. 2/27/12, pp. 2-

In compliance with the plea agreement, this Court sentenced the Defendant to a

term of imprisonment of not less than five (5) years nor more than ten (10) years in a
state correctional institution in Case No. 2822/2011. (N.T. 2/27/12, p. 15). Moreover,
in Case No. 2828/2011, this Court imposed a sentence of not less than one (1) year nor
more than two (2) years in a state correctional institution, and ordered this sentence to
run concurrently to that in Case No. 2822/2011. (N.T. 2/27/12, p. 16).
On September 10, 2012, in Case Nos. 282/2012, 289/2012 and
3824/2012, the Defendant entered a guilty plea to ten (10) counts of Burglary3 and one
(1) count of Criminal Conspiracy to Commit Burglary,4 for a negotiated plea sentence of
seven and a half (7 Vs) years to fifteen (15) years on each of the eleven (11) counts,
concurrent to each other, but which would run consecutively to the sentence imposed
on February 27, 2012. (N.T. 9/10/12, pp. 2-3). It was contemplated that the aggregate
sentence in all of the Defendant’s cases would be twelve and a half (12 Vz) years to
twenty^five (25) years. (N.T. 9/10/12, p. 3).
Presently before this Court is Defendant's Motion for Post Conviction
Collateral Relief that was filed on February 19, 2013, as amended on March 21, 2013,
by conflicts counsel Charles Banta, Esquire. Based upon Attorney Banta’s review of the
record, he concluded that the issued raised in the Defendant’s Motion for Post
Conviction Collateral Relief were without merit. Consequently, Attorney Banta filed a
letter pursuant to the requirements established in Commonwealth v. Finley, 379 Pa.

18 Pa. C.S.A. § 3502(a).
18 Pa. C.S.A. § 5104; 18 Pa. C.S.A. § 903.

2

Super. 390, 550 A.2d 213 (1988) and a Petition to Withdraw as Counsel.

An

evidentiary hearing relative to Defendant's motion was conducted before this Court on
May 29, 2013. At the commencement of this hearing, this Court permitted Attorney
Banta’s withdrawal as counsel.

The Defendant proceeded pro se at the evidentiary

hearing, from which we make the following findings of fact.
Kimberly Makoul, Esquire, a private criminal defense attorney practicing
over twenty-two (22) years, represented the Defendant in the above-captioned matters.
Attorney Makoul met and counseled the Defendant on numerous occasions,
strategy was discussed, as was the option of entering guilty pleas.

Trial

The Defendant

admitted to Attorney Makoul that he was not innocent,5 and consequently Attorney
Makoul’s goal throughout her representation of the Defendant was to prevent him from
spending the rest of his life in prison. To further this aim, Attorney Makoul reviewed all
discovery material with the Defendant, and she provided him with copies of most
documents for his records. Attorney Makoul discussed with the Defendant the possible
sentences that could be imposed by this Court if he were convicted of the charges. The
Defendant discussed with Attorney Makoul his concern about a “double jeopardy”
violation because he believed that all charges stemmed from a single criminal episode.
Attorney Makoul assured the Defendant that “double jeopardy” was not an issue in his
case, as he was pleading guilty to different offenses. Attorney Makoul was prepared to
go to trial on February 27, 2012, as she was on the Defendant’s second set of cases.
However, the Defendant indicated to his attorney on February 26, 2012, that he wished
to accept the Commonwealth’s offer and not proceed to trial on the first set of charges.

5
At the evidentiary hearing, the Defendant candidly admitted to this Court that he was
not innocent of the charges to which he entered pleas.

3

Similarly, the Defendant told Attorney Makoul that if she were able to negotiate an
aggregate sentence of twelve and a half (12 Vz) years on the second set of charges, he
would accept such an offer. In both instances, Attorney Makoul was successfully able
to negotiate the plea arrangement that the Defendant instructed her to so do. While
Attorney Makoul counseled the Defendant, it was abundantly clear that the Defendant
was calling all of the shots and making all of the decisions with regard to his cases.
In his motion for Post Conviction Collateral Relief, Defendant contends
that Attorney Makoul rendered ineffective assistance of counsel by advising him to enter
into pleas that violated 18 Pa. C.S.A. § 110. The Defendant also argues that the
Commonwealth failed to abide by the plea agreement when the two (2) sets of cases
were run consecutively to each other instead of concurrently. Initially we note that
claims of ineffective assistance of counsel are subject to a three part analysis:
To establish an ineffective assistance of counsel claim,
[defendant] must first demonstrate that the underlying claim
is of arguable merit; then, that counsel’s action or inaction
was not grounded on any reasonable basis designed to
effectuate [defendant’s] interest; and finally, that but for the
act or omission in question, the outcome of the proceedings
would have been different.
Commonwealth v. Travaglia, 541 Pa. 108, 118, 661 A.2d 352, 356-357 (1995), U.S. cert.
denied, 116 S.Ct. 931 (1996) (citations omitted). Defendant bears the burden of proving
all three prongs of this standard. Id.
With the

above

standards in mind, we address the Defendant’s

contentions. The Defendant avers that Attorney Makoul was ineffective for advising him
to enter into pleas that violated 18 Pa. C.S.A. § 110. This statute provides in pertinent
part:
Although a prosecution is for a violation of a different provision of the

4

statutes than a former prosecution or is based on different facts, it is
barred by such former prosecution under the following circumstances:
(1) The former prosecution resulted in an acquittal or in a
conviction as defined in section 109 of this title (relating to
when prosecution barred by former prosecution for same
offense) and the subsequent prosecution is for:
any offense of which the defendant could have been
(i)
convicted on the first prosecution;
any . offense based on the. same conduct or arising from the
-(h)
same criminal episode, if such offense was known to the
appropriate prosecuting officer at the time of the
commencement of the first trial and occurred within the
same judicial district as the former prosecution unless the
court ordered a separate trial of the charge of such offense;
or
the same conduct, unless:
(hi)
(A) the offense of which the defendant was formerly convicted
or . acquitted and the offense for which he is subsequently
prosecuted each requires proof of a fact not required by the
other and the law defining each of such offenses is
intended to prevent a substantially different harm or evil;
or
(B) the second offense was not consummated when the former
trial began.
18 Pa. C.S.A. §110.

Specifically, the Defendant asserts that he was charged with

Persons Not to Possess a Firearm for possessing a 9mm Smith and Wesson
semiautomatic firearm that was taken during a burglary in Hamburg, Pennsylvania, to
which he entered a guilty plea on February 27, 2012. The Defendant further argues
that because he entered such a guilty plea, the Commonwealth was legally precluded
from prosecuting him for the burglary that occurred on May 28, 2011, to which he
entered a guilty plea on September 10, 2012. This argument is legally flawed.
This Court recognizes that Section 110 of the Criminal Codes requires that
the Commonwealth proceed with all charges arising out of the same criminal episode by
prosecuting them together. However, the Defendant’s possessory crime that occurred

5

in the City of Allentown, Lehigh County, on June 3, 2011, is a totally separate criminal
episode from the burglary that occurred on May 28, 2011, in Hamburg, Pennsylvania.
This Court notes that the Defendant did not enter a guilty plea to the theft of the subject
firearm on February 27, 2012.

Instead, the Defendant pled guilty to Person Not to

Possess a Firearm. This offense has nothing to do with how the firearm was acquired,
but addresses the fact that the firearm was in the Defendant’s possession in
contravention of the law.

Therefore, the Defendant’s guilty plea to Persons Not to

Possess a Firearm that was entered on February 27, 2012, does not prohibit the later
prosecution for the Burglary in which the firearm was taken. Based on the foregoing,
Attorney Makoul cannot be deemed ineffective for advising the Defendant that there
were no viable or recognizable legal issues with regard to the Defendant’s “double
jeopard^’ concern.
Next, the Defendant argues that the Commonwealth failed to abide by the
plea agreement when the two (2) sets of charges were ordered to run consecutively to
each other instead of concurrently.' This argument is factually undermined by the clear
record that exists in the within matters. Indeed, on February 27, 2012, the Defendant
appeared before this Court and entered a guilty plea to Person Not to Possess a Firearm
in Case No. 2822/2011 and entered a nolo contendere plea to Resisting Arrest in Case
No. 2828/2011. (N.T. 2/27/12, p. 2). In exchange for these pleas, the Commonwealth
agreed to nolle pros Case No. 2821/2011 and not pursue the other counts of the
Criminal Informations in Case Nos. 2822/2011 and 2828/2011. (N.T. 2/27/12, p. 2).
Additionally, pursuant to the plea agreements, in Case No. 2822/2011, the Court was
bound to impose a sentence of not less than five (5) years nor more than ten (10) years

6

m a state correctional institution, and the sentence imposed in Case No. 2828/2011
would run concurrently thereto. (N.T. 2/27/12, pp. 2-3).

At the time of entering

these pleas, this Court explicitly stated on the record that the Defendant still had cases
that remained open. (N.T. 2/27/12, p. 3). Furthermore, during'the Defendant’s oral
plea colloquy, the Defendant acknowledged the terms of his plea agreement (N.T.
2/27/12, p. 4); indicated that he read and understood the written plea colloquy (N.T.
2/27/12, p. 4); stated that he understood that he did not have to give up his rights
but could proceed to trial (N.T. 2/27/12, p. 4); affirmed that it was his desire to enter
the guilty plea (N.T. 2/27/12, p. 5); posed no questions to the judge (N N.T. 2/27/12,
p. 6); articulated that no one was forcing or threatening him to plead guilty (N.T.
2/27/12, p. 5); testified that no promises were made to him other than the plea
agreement (N.T. 2/27/12, p. 5); and expressed satisfaction with his attorney (N.T.
2/27/12, pp. 5-6). The record clearly indicates that the Defendant understood the
Thereafter, on the same date, and in

consequences of his entering his pleas,

compliance with the plea agreement, this Court sentenced the Defendant to a term of
state imprisonment of not less than five (5) years nor more than ten (10) years in Case
No. 2822/2011. (N.T. 2/27/12, p. 15). Moreover, in Case No. 2828/2011, this Court
imposed a sentence of not less than one (1) year nor more than two (2) years in a state
correctional institution, and ordered this sentence to run concurrently to that in Case
No. 2822/2011. (N.T. 2/27/12, p. 16).
Then, on September 10, 2012, in Case Nos. 282/2012, 289/2012 and
3824/2012, the Defendant again came before this Court and entered a guilty plea to
ten (10) counts of Burglary and one (1) count of Criminal Conspiracy to Commit

7

Burglary, for a negotiated plea sentence of seven and a half (7 Vz) years to fifteen (15)
years on each of the eleven (11) counts, concurrent to each other, but which would run
consecutively to the previous sentence imposed on February 27, 2012. (N.T. 9/10/12,
pp. 2-3). It was contemplated that the aggregate sentence in all of the Defendant’s cases
would be twelve and a half (12 Vz) years to twenty-five (25) years. (N.T. 9/10/12, pp. 3,
7-8). Again, during the Defendant’s oral plea colloquy, the Defendant acknowledged
the terms of his plea agreement (N.T. 9/10/12, pp. 6-7); the Commonwealth and the
Court reiterated the charges that he was pleading guilty to and informed him of the
possible sentences that he could face if a plea had not been entered into (N.T.
9/10/12, pp. 6-8); the Defendant denied having any drugs, alcohol or other
medication that would affect his ability to know what he was doing (N.T. 9/10/12, p.
6); indicated that he read and understood the written plea colloquy (N.T. 9/10/12, p.
10); stated that he understood that he did not have to give up his rights but could
proceed to trial (N.T. 9/10/12, p. 10); affirmed that it was his desire to enter the guilty
plea (N.T. 9/10/12, p. 10); posed no questions to the judge (N.T. 9/10/12, p. 11);
articulated that no one was forcing or threatening him to plead guilty (N.T. 9/10/12,
p. 10); testified that no promises were made to him other than the plea agreement
(N.T. 9/10/12, p. 10); and expressed satisfaction with his stand-by counsel (N.T.
9/10/12, pp. 10-11).

Again, the record clearly indicates that the Defendant

understood the consequences of his pleading guilty.

Based on this factual record, the

Defendant’s argument is baseless.
Accordingly, for the foregoing reasons, we deny Defendant’s Motion for
Post Conviction Collateral Relief.

8

Additional material
from this filing is
available in the
Clerk's Office.

